                                                                             Report No. DODIG-2015-001



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              OCTOBER 17, 2014




                     Assessment of the Department of
                     Defense Prisoner of War/Missing
                     in Action Accounting Community




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
      I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                           Mission
        Our mission is to provide independent, relevant, and timely oversight
        of the Department of Defense that supports the warfighter; promotes
        accountability, integrity, and efficiency; advises the Secretary of
                   Defense and Congress; and informs the public.



                                            Vision
        Our vision is to be a model oversight organization in the Federal
        Government by leading change, speaking truth, and promoting
        excellence—a diverse organization, working together as one
                 professional team, recognized as leaders in our field.




                                       Fraud, Waste & Abuse

                                       HOTLINE
                                       Department of Defense
                                       dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                               Results in Brief
                               Assessment of the Department of Defense Prisoner of
                               War/Missing in Action Accounting Community



October 17, 2014                                 Observations (cont’d)

Objective                                        Upon their return from field work, the assessment team
                                                 briefed the Acting Under Secretary of Defense for Policy
The objective was to assess the                  on our preliminary observations and recommendations.
Department’s programs and practices              Subsequently, the Secretary of Defense directed far-reaching
concerning the identification and                organizational changes to the accounting community, which
repatriation of the remains of the Nation’s      were consistent with our preliminary observations and
missing in action (MIA) from past armed          recommendations.
conflicts. This included the overall
accounting community organization and            In addition to the Secretary’s broad organizational changes,
effectiveness, issues raised about possible      our assessment team identified a number of key issues which
inappropriate official travel, and allegations   need to be addressed.
made by past and present personnel
                                                    •	 The accounting community lacks:
assigned to the mission concerning poor
leadership and mismanagement. In addition,               {{   a clearly defined mission and supporting resources,
we were asked to identify any other                      {{   a comprehensive, fully coordinated strategic plan,
deficiencies related to the administration                    and
of programs carried out by the Defense
Prisoner of War (POW)/Missing Personnel
                                                         {{   a process for addressing the estimated 50,000
Office, Joint POW/MIA Accounting Command                      personnel whose ships or aircraft were lost at sea
(JPAC), and other members of the accounting                   and whose remains are not likely recoverable, but
community that have impeded or could                          who are still considered MIA.
impede its ability to accomplish the                •	 Some JPAC personnel were not conducting temporary
identification and repatriation mission.               duty travel in compliance with applicable guidance.
                                                    •	 More than 40 current and former employees alleged
Observations                                           misconduct.

We found the DoD personnel assigned to the
accounting community to be fully cognizant       Recommendations
of the importance of the mission and highly      We recommend the DoD:
dedicated to its accomplishment. However,
the community has not been able to reach            •	 define a single mission with supporting resources,
its full potential to perform effectively and       •	 develop a strategic plan, and
efficiently. Nor has it met the long-standing
expectations of the surviving family                •	 develop policy to address MIAs not likely to be
members still hoping for closure on the loss           recovered, including personnel lost at sea.
of their loved ones.
                                                 JPAC must update travel procedures, and establish controls to
                                                 ensure better compliance with applicable travel regulations.
                                                 The Secretary should address the misconduct allegations and
                                                 then take corrective action.



Visit us at www.dodig.mil


                                                                                                    DODIG-2015-001 │ i
                               Results in Brief
                               Assessment of the Department of Defense Prisoner of
                               War/Missing in Action Accounting Community




  Management Comments and
  Our Response
  The Secretary of Defense, the Under Secretary of         We request that the Secretary of Defense
  Defense for Policy, the Under Secretary of Defense for   provide additional information in response to
  Personnel and Readiness, the Chairman of the Joint       Recommendation 3. We also ask that the Commander,
  Chiefs of Staff, and the Commander, Joint POW-MIA        Joint POW-MIA Accounting Command, provide additional
  Accounting Command provided comments to this report.     information in response to Recommendation 11.d. The
  The Joint POW-MIA Accounting Command, the Under          full reproduction of management comments may be
  Secretary of Defense for Personnel and Readiness, and    found in this report.
  the Defense Prisoner of War/Missing Personnel Office
  provided unsolicited comments which we considered
  and acted upon as required. Management concurred
  with all 21 recommendations.




ii │ DODIG-2015-001
Recommendations Table
                                        Recommendations Requiring     No Additional Comments
           Management                          Comment                 Required at This Time
 Secretary of Defense               3                                      1.a, 8.a, 10.a.1. 10.a.2, 12
 Under Secretary of Defense                                          1.b, 2.a, 2.b, 4, 7.a, 7.b, 8.b, 9.a,
 for Policy                                                                                     9.b, 10.b
 Under Secretary of Defense                                                                             5
 for Personnel and Readiness
 Commander, Joint POW-MIA           11.d                                                11.a, 11.b, 11.c
 Accounting Command

*Total Observations and Recommendations in this Report: 11 and 21.
 Provide management comments by November 17, 2014




                                                                                                   DODIG-2015-001 │ iii
DODIG-2015-001 │ v
           Distribution:
           Office of the Secretary of Defense
                Secretary of Defense*
                Deputy Secretary of Defense
                Under Secretary of Defense (Personnel and Readiness)*
                Under Secretary of Defense (Policy)*
                Director, New Defense Agency*
                Assistant Secretary of Defense (Legislative Affairs)
                Defense Prisoner of War/Missing Personnel Office

           Department of the Army
                Secretary of the Army
                Surgeon General
                	   Armed Forces Medical Examiner
                	   Armed Forces DNA Identification Laboratory
                Human Resources Command

           Department of the Navy
                Secretary of the Navy
                Personnel Command
                Commandant of the Marine Corps
                Casualty Assistance Office

           Department of the Air Force
                Secretary of the Air Force
                Life Sciences Equipment Laboratory
                Mortuary Affairs
                Casualty Assistance Office

           Joint Staff
                Chairman of the Joint Chiefs of Staff*
                Director, Joint Staff

           Combatant Command
                Commander, U.S. Pacific Command
                	  Commander, Joint POW/MIA Accounting Command*
                Commander, U.S. European Command
                Commander, U.S. Central Command
                Commander, U.S. Africa Command
                Commander, U.S. Southern Command
                Commander, U.S. Northern Command

                Congressional Committees and Subcommittees
                Senate Committee on Armed Services
                Senate Committee on Homeland Security and Governmental Affairs
                House Committee on Armed Services

                * Indicates recipient of the Draft Report.

vi │ DODIG-2015-001
Contents
Introduction______________________________________________________________________________1
Part I. Notable Initiatives______________________________________________________5
Part II. Mission________________________________________________________________________9
Observation 1. Lack of a Clearly Defined Mission and Supporting Resources _ _________ 11
Observation 2. Accounting Community Lacks a Strategic Plan___________________________ 15
Observation 3. Unified Command Plan Needs Updating___________________________________ 19

Part III. Regulations, Policies, and Statues_ _____________________ 21
Observation 4. Accounting Community Policies, Guidance, and Standard
   Operating Procedures_ ___________________________________________________________________ 23
Observation 5. Lack of Disinterment Policy_ _______________________________________________ 25

Part IV. Operations_______________________________________________________________ 27
Observation 6. Lack of a Centralized, Definitive Database Identifying MIAs____________ 29
Observation 7. Non-recoverable Missing Persons__________________________________________ 31
Observation 8. Identifications Limited by Current Methods of Accounting_____________ 35
Observation 9. Lack of Coordination with Combatant Commands,
   Department of State, and Host Nation Governments __________________________________ 39

Part V. Structure___________________________________________________________________ 43
Observation 10. Duplication of Personnel and Functions within the
   Accounting Community___________________________________________________________________ 45

Part VI. Travel________________________________________________________________________ 49
Observation 11. Assessment of JPAC Travel Processes and Procedures_________________ 51

Part VII. Misconduct Allegations_______________________________________ 59
Observation 12. Allegations of Misconduct Made by Accounting
   Community Employees___________________________________________________________________ 61

Part VIII. Additional Issues__________________________________________________ 65




                                                                                              DODIG-2015-001 │ vii
                   Contents (cont’d)
                   Appendixes
                   Appendix A. Scope and Methodology________________________________________________________ 71
                   Appendix B. Prior Coverage__________________________________________________________________ 73
                   Appendix C. Organizations Contacted and Visited_________________________________________ 76
                   Appendix D. Policies_ _________________________________________________________________________ 78
                   Appendix E. Assessment Initiation __________________________________________________________ 81
                   Appendix F. National Defense Authorization Acts_ ________________________________________ 82

                   Management Comments
                   Secretary of Defense Comments_ ____________________________________________________________ 83
                   Under Secretary of Defense for Policy Comments__________________________________________ 84
                   Under Secretary of Defense for Personnel and Readiness Comments____________________ 89
                   Chairman of the Joint Chiefs of Staff Comments ____________________________________________ 91
                   Commander, Joint POW/MIA Accounting Command Comments_ _________________________ 93

                   Acronyms and Abbreviations______________________________________________ 95




viii │ DODIG-2015-001
                                                                                                                                       Introduction




Introduction
Although the title of this report makes mention of “prisoners of war” (POWs), we
focused on the missing in action (MIA) aspect of the mission as the accounting
community is responsible for the recovery of and accounting for the missing from
past conflicts.1

The DoD Office of Inspector General (DoD OIG) started this assessment in response
to oversight requests regarding the administration and performance of programs
carried out by DoD’s past conflict accounting community raised by:

          •	 Under Secretary of Defense for Policy,
          •	 Senator McCaskill, and
          •	 Congresswomen Speier, Roby, Tsongas, Shea-Porter, and McCollum.

Further, the 2014 National Defense Authorization Act required DoD to take into
account DoD OIG recommendations in the Secretary of Defense June 2014 report
to Congress.

The DoD OIG initiated this assessment as a research project on August 14, 2013,
transitioning into a full assessment on November 6, 2013.

From November 2013 to April 2014, the DoD OIG assessment team visited all
organizations within the accounting community, including Joint Prisoner of War/
Missing in Action Accounting Command (JPAC) detachments in Thailand, Laos,
and Vietnam; the deployed Korea Forward Element in Seoul; and the Liaison
office in Germany. The team met with a number of organizations with an interest
in the accounting mission, including family representatives, veteran’s service
organizations, non-governmental agencies, private persons, and private companies.

The team also interviewed more than 40 current and former employees of the
accounting community regarding multiple alleged instances of mismanagement
and abuse, primarily involving JPAC, which have been referred to the DoD OIG
Hotline for proper disposition, but which remain a DoD management responsibility
meriting a timely and thorough inspection.




	1	
      Past conflicts are defined in section 1509, title 10, United States Code (10 U.S.C. §1509 [2013]) and include World War II,
      Cold War, Korean War, Indochina War, and Persian Gulf War.




                                                                                                                                    DODIG-2015-001 │ 1
Introduction



                 Foremost among the team’s observations during this assessment were:

                          •	 The accounting community as a whole does not have an overarching
                             clearly defined and stated mission with related goals and objectives.
                          •	 There is no unified single chain of command to focus and coordinate the
                             community’s efforts, which has led to duplication of organizational effort
                             and internal conflict over roles and responsibilities.
                          •	 Many accounting community policies, guidance, and standard operating
                             procedures (SOPs) are outdated, incomplete, do not exist where they are
                             needed, or do not fully encompass the accounting mission.
                          •	 The resources required for the accounting community to accomplish its
                             intended purposes, including those required for the World War II mission,
                             have not been clearly established.
                          •	 DoD does not have a single, comprehensive, and centralized database that
                             identifies the missing from past conflicts, beginning with World War II.


                 Secretary-directed Organizational Changes to Past
                 Conflict Accounting Community
                 On February 20, 2014, the Secretary of Defense directed the Acting Under
                 Secretary of Defense for Policy (USD[P]) to provide him with recommendations
                 on how to reorganize the accounting community to more effectively account
                 for missing personnel and ensure their families receive timely and accurate
                 information.

                 On March 12, 2014, the DoD OIG assessment team briefed the Acting USD(P) on our
                 preliminary observations and recommendations. The Acting USD(P) subsequently
                 provided the Secretary of Defense with a plan for the reorganization of the
                 accounting community, incorporating inputs from the DoD OIG and past studies
                 and reviews of the accounting community.

                 Based on these recommendations from Acting USD(P), the Secretary directed the
                 department to implement the following organizational changes to the accounting
                 community to create a single, accountable organization having complete oversight
                 of personnel accounting resources, research, and operations:2

                          1.	 DoD will establish a new Defense agency that combines Defense Prisoner
                              of War/Missing Personnel Office (DPMO), JPAC, and select functions of
                              the U.S. Air Force’s Life Sciences Equipment Laboratory (LSEL). This
                              agency will be led by a presidentially appointed Director with a general
                              officer deputy, and will be overseen by the Under Secretary of Defense for

                 	2	
                       Action Memo from Acting USD(P) to Secretary of Defense, dated March 25, 2014, which laid out recommendations for
                       the reorganization of the accounting community and signed off as approved by the Secretary.




2 │ DODIG-2015-001
                                                                                                                                     Introduction



               Policy. All communications with family members of the missing from past
               conflicts will be managed and organized by this new agency. DoD will
               provide proposed changes to existing legislation needed to support this
               decision for consideration in the 2015 National Defense Authorization Act.
          2.	 To streamline the identification process, an Armed Forces medical
              examiner working for the new agency will be the single DoD identification
              authority for past conflict identifications. They will oversee the scientific
              operations of the Central Identification Laboratory (CIL) in Hawaii, the
              satellite laboratory in Omaha, Nebraska, and LSEL in Dayton, Ohio. 3
          3.	 DoD will work with Congress to realign its appropriations for this
              mission into a single budget line, allowing for greater execution flexibility
              in the accounting mission with the ability to align resources to respond
              more effectively.
          4.	 To improve the search, recovery, and identification process the
              department will implement a centralized database and case management
              system containing all missing service members’ information.
          5.	 DoD will develop proposals for expanding public­private partnerships in
              identifying our missing. The goal is to leverage the capabilities and efforts
              of organizations outside of the Government that responsibly work to
              account for our missing.
          6.	 The new agency will be responsible for managing, organizing,
              and communicating with the service casualty offices (SCOs) on all
              communications with family members of missing personnel. A SCO from
              each Service shall act as a liaison officer embedded in the agency.
          7.	 The new agency will be responsible for amending, updating, signing, and
              publishing DoD instructions as required by a change in legislation and
              DoD directive to support the new agency.
          8.	 The new agency should establish metrics for accounting for past conflict
              missing personnel.
          9.	 The new agency should investigate the policy for lost at sea.

The DoD OIG concurs with these organizational changes, which are consistent
with our preliminary observations and recommendations, as briefed to the Acting
USD(P) on March 12, 2014.

Because the Secretary of Defense has already recommended these changes, we have
not repeated them in our report, but have made additional recommendations that
enhance and build upon them.

	3	
      The CIL is the laboratory portion of JPAC, responsible for providing scientifically sound tests of human remains and non-
      biological material evidence and establishing identifications of those missing persons under the accounting community’s
      jurisdiction.




                                                                                                                                  DODIG-2015-001 │ 3
                      Part I - Notable Initiatives




Part I
Notable Initiatives




                                 DODIG-2015-001 │ 5
                                                                                                                   Part I – Notable Initiatives



Joint Field Activities Conducted with Host Nation
Currently, JPAC joint field activities4 are being coordinated and jointly conducted
with host country organizations in the Socialist Republic of Viet Nam, Kingdom of
Cambodia, Lao People’s Democratic Republic, and Republic of Korea (South Korea).
These organizations with which JPAC has closely worked include the Vietnamese
Office for Seeking Missing Persons (VNOSMP), Cambodia POW/MIA Committee,
Lao POW/MIA Team, and the South Korean Ministry of National Defense Agency
for Killed in Action Recovery and Identification (MAKRI).

          •	 MAKRI works closely with JPAC to collect information to identify potential
             excavation sites. We were informed that MAKRI takes the lead and
             provides personnel to perform the excavations, as well as assists in U.S.
             investigative and recovery missions.
          •	 VNOSMP also works closely with their JPAC field detachment by
             performing advance work identifying local citizens for JPAC to interview
             and by helping translate archival documents. They also have established
             the Vietnam Recovery Team initiative that adds capacity and capability
             while reducing the size of U.S. recovery efforts.
          •	 Additionally, both the Cambodia Committee and Lao Team work closely
             with their respective JPAC field detachments providing and supporting
             advance work in identifying locations and local citizens to interview.

These organizations support publicizing upcoming joint field activities in their
countries and interviewing those that come forward with relevant information.
This contributes to better host nation relations and increases the flow of timely,
useful information with which to find missing U.S. service members. Consideration
should be given to replicating these successful host country models with other
nations where recovery operations are likely to occur and where obtaining new
leads on missing personnel is difficult without local cooperation and support.


Solvability/Resolvability Ratings
In order to expedite the identification of the missing, the CIL is working on a rating
project that has two sections called Solvability and Resolvability. The purpose
of the Solvability Rating is to apply identical criteria and analytical techniques to
establish the accounting probability for missing persons and to provide a method
that may be used to screen, prioritize, and increase the efficiency of research
efforts. The purpose of the Resolvability Rating is to determine the probability


	4	
      Joint field activities are missions in foreign countries that include both investigative and recovery teams searching for
      U.S. service member’s remains.




                                                                                                                                  DODIG-2015-001 │ 7
Part I – Notable Initiatives



                 that forensic testing of human remains buried as unknowns will produce probative
                 information that will contribute to the identification of an unknown person. While
                 this is not, reportedly, an entirely perfect system, it does allow the analysts to
                 narrow down the list of potential candidates for exhumation and identification.
                 This project has been used to chart the movement of unknown remains from the
                 battlefield back to their ultimate resting place and has borne identifications from
                 those interred in National Cemeteries in the U.S. and abroad.


                 Radiography
                 The CIL is also working on a project focused on the use of antemortem chest
                 X-rays to help narrow the list of potential missing that could lead to identification.
                 This project is focused on World War II and Korean War missing persons that
                 are interred as unknowns. This is not used as the sole method for identification,
                 but rather to narrow the candidate list. Each individual’s clavicles has a unique
                 signature (like a fingerprint) that may be used to help identify a specific person.
                 The project involves digitizing thousands of X-rays obtained from the Services and
                 the National Archives. The X-rays of nearly 6,000 Korean War MIAs and over
                 1,000 World War II Navy and Marine MIAs have been found. This X-ray digitizing
                 effort is continuing at the laboratory annex at Offutt Air Force Base.




8 │ DODIG-2015-001
          Part II – Mission




Part II
Mission




          DODIG-2015-001 │ 9
                                                                                     Part II – Mission




Observation 1
Lack of a Clearly Defined Mission and
Supporting Resources
The DoD POW/MIA accounting community lacks a clearly defined and commonly
understood mission to guide focused and unified action, supported by and aligned
with the required financial resources.

This occurred because the accounting community is not unified under a single
chain of command with one clearly defined and agreed-upon overarching mission,
supported by a related mission statement and the necessary resources to address
recovery and repatriation efforts.

As a result, DoD could not achieve a sufficiently coordinated and unified effort
among accounting community member organizations which has impeded their
effectiveness in making identification of missing personnel.



Discussion
The DoD has the responsibility to account for missing personnel from past armed
conflicts. Section 1509, title 10, United States Code (10 U.S.C. §1509 [2013])
defines the DoD “POW/MIA accounting community” as including the following
organizations:

         •	 DPMO,
         •	 JPAC,
         •	 the Armed Forces DNA Identification Laboratory (AFDIL),
         •	 LSEL,
         •	 the casualty and mortuary affairs offices of the Military Departments, and
         •	 any other element of DoD whose mission involves the accounting for and
            recovery of members of the Armed Forces who are missing in action,
            prisoners of war, or unaccounted for.

Under the overall direction of the Secretary of Defense, these organizations have
the responsibility to implement a comprehensive, coordinated, integrated, and fully
resourced program to accomplish the personnel accounting mission. 5 Although
tied together by law, these organizations reside in parallel chains of command and


	5	
      10 U.S.C. §1509 (2013)




                                                                                     DODIG-2015-001 │ 11
Part II – Mission



                 possess unique mission statements that pertain only to their portion of the overall
                 accounting mission. For example, JPAC’s stated mission is focused on “search,
                 recovery, and laboratory operations to identify” physical remains while DPMO’s
                 mission is to achieve the “fullest possible accounting for our missing DoD personnel
                 and to inform their families and the public.” Interviews conducted with accounting
                 community personnel indicated a significant divergence of views regarding the
                 community’s mission.

                 In an effort to overcome this lack of unity of command and effort, DPMO issued the
                 Personnel Accounting Community Strategy in January 2009 to “provide direction
                 for the community” by “laying out the strategic themes and goals.” The strategy
                 introduced an additional mission statement:
                           Establish the most favorable conditions and conduct operations to
                           account for those missing in past conflicts, and prepare to account
                           for those who remain missing following current and future conflicts.

                 Unfortunately, the 2009 strategy document and new mission statement did
                 not achieve its stated purpose of coordinating and integrating the disparate
                 organizations within the accounting community into a coherent and unified
                 accounting mission. Moreover, although DPMO was responsible for developing
                 policy and strategy for the personnel accounting mission, neither it nor any other
                 DoD Component had the authority to enforce implementation and were stymied by
                 the lack of a single chain of command.

                 The Secretary’s March 2014 order to “establish a new Defense agency that
                 combines DPMO, JPAC, and select functions of LSEL” into a single, accountable
                 organization that has complete oversight of personnel accounting resources,
                 research, and operations could fundamentally change the operational dynamic of
                 the accounting community by significantly enhancing unity of command and effort.
                 The reorganization does not change the reporting relationship of the SCOs, which
                 will remain with their respective military service and AFDIL, which will remain
                 under the Department of the Army.

                 The new Defense agency needs a clearly defined mission and mission statement,
                 which doesn’t currently exist, to unify the new organization internally and to
                 provide clear and focused direction to the entire accounting community.

                 The new Defense agency also needs to ensure that the appropriate financial
                 resources are available to meet the requirements of its new mission. It is




12 │ DODIG-2015-001
                                                                                      Part II – Mission



imperative that the new agency’s financial requirements be determined, to include
what would be required to effectively carry out the World War II personnel
accounting mission. It is also imperative that resource requirements are aligned
with and support mission requirements to enhance the performance of recovery
and identification operations consistent with congressional direction and the needs
of the families of those still missing.


Recommendations
Recommendation 1.a
We recommend that the Secretary of Defense clearly define a single,
comprehensive mission and mission statement for the new Defense agency
and the missing in action accounting community to coordinate and integrate
the collective efforts of the member organizations.

Secretary of Defense Comments
The Secretary of Defense concurred with Recommendation 1.a. The Deputy
Secretary of Defense will approve the mission and mission statement in the new
Defense agency’s chartering directive.

Our Response
The comments of the Secretary of Defense are responsive for Recommendation 1.a.
DoD OIG will follow up in six months with a request for the chartering directive of
the new Defense agency.

Recommendation 1.b
In support of the Secretary of Defense’s direction for organizational change,
detailed on page 3, number 3 of this report, we recommend that the Under
Secretary of Defense for Policy should task the Director of the new Defense
agency to conduct a comprehensive financial review, ensuring that all mission
requirements are fully analyzed and incorporated into future funding requests.

Under Secretary of Defense for Policy Comments
The Under Secretary of Defense for Policy concurred with comment to
Recommendation 1.b. In response to guidance issued by the Secretary of Defense
to reorganize the mission of accounting for missing personnel from previous wars,




                                                                                      DODIG-2015-001 │ 13
Part II – Mission



                 the Under Secretary of Defense for Policy established the Personnel Accounting
                 Consolidation Task Force to plan and implement the transformation of the culture,
                 structure, and processes involved in how DoD conducts activities related to missing
                 personnel, including the establishment of a new Defense agency.

                 Consistent with the Secretary of Defense’s direction, the new Defense agency will
                 have oversight of all personnel accounting resources and will ensure that resource
                 requirements are fully aligned with and support mission requirements. The
                 funding for the mission will be executed from a single budget line allowing for all
                 requirements to be equally vetted and resourced.

                 Our Response
                 The comments from the Under Secretary of Defense are responsive for
                 Recommendation 1.b. DoD OIG will follow up with a request for the new
                 agency’s budget.




14 │ DODIG-2015-001
                                                                                                                      Part II – Mission




Observation 2
Accounting Community Lacks a Strategic Plan
The DoD does not have a comprehensive, fully coordinated strategic plan that
integrates the collective efforts of the accounting community and directs actions
towards accomplishment of common goals and objectives.

This occurred because, while the Deputy Assistant Secretary of Defense (DASD) for
POW/Missing Personnel Affairs, dual-hatted as Director, DPMO, by law, established
policy and strategy for the accounting community, DPMO did not have the ability to
implement and enforce such policy and strategy across the accounting community
due to the lack of a single chain of command.

As a result, implementing a comprehensive, fully coordinated strategic plan across
the accounting community has not been feasible. In the absence of an overarching
strategic plan, the individual organizations within the accounting community have
operated without an agreed-upon set of priorities, goals, and objectives.



Discussion
Within the accounting community, Congress has tasked the DASD for POW/Missing
Personnel Affairs, dual-hatted as Director, DPMO6 with the responsibility for
policy, control, and oversight of the entire process for investigation and recovery
of missing persons. In addition, it is responsible for the coordination within DoD
and between other U.S. agencies on all matters concerning missing personnel. The
Secretary of Defense has also authorized DPMO to establish and direct policy for
the entire accounting community.7 Further, as a designated DoD field agency, DPMO
retains additional authority to direct the activities of the accounting community. 8

In 2009 and 2011, the DASD for POW/Missing Personnel Affairs published
strategic guidance to the accounting community through the Personnel Accounting
Community Strategy 2009 and the DPMO Strategy FY 2011-2016. However, the
accounting community’s mission has been conducted by multiple DoD organizations
reporting through parallel chains of command. DPMO reports to the Secretary of
Defense through the USD(P), while JPAC reports through Commander, U.S. Pacific
Command. Further, LSEL reports through the Department of the Air Force, AFDIL
is under the Department of the Army, and the SCOs report separately through their
respective Services.

	6	
    Section 1501, title 10, United States Code (10 U.S.C. §1501 [2013])
	7	
    DoD Directive 2310.07E, “Personnel Accounting – Losses Due to Hostile Acts,” certified current August 21, 2007.
	8	
    DoD Directive 5110.10, “Defense Prisoner of War/Missing Personnel Office (DPMO),” September 21, 2005.




                                                                                                                      DODIG-2015-001 │ 15
Part II – Mission



                 This disconnected organizational structure, with each accounting community
                 member reporting and receiving funding through different chains of command,
                 prevented DoD from implementing a strategic plan.

                 Once accomplished, the reorganization of the accounting community announced by
                 the Secretary of Defense on March 31, 2014, will create a new, streamlined Defense
                 agency that still requires strategic guidance and direction. With a strategic plan
                 that clearly defines and communicates organizational goals and that establishes
                 program milestones and metrics to measure progress, the accounting community’s
                 energies can be focused on achieving its accounting priorities. A realistic strategic
                 plan must look to the future as well as focus on improving current operations.

                 In addition, the current proactive responsibilities of the accounting community lack
                 a defined end-state for determining when recovery operations for the missing have
                 been achieved according to some agreed-upon criteria. This could be an especially
                 challenging element of the strategic plan that will require an ongoing dialogue over
                 time with all concerned stakeholders. In the absence of a defined end state and
                 sunset criteria for actively searching for past conflict MIAs, the accounting mission
                 can be expected to continue in perpetuity with ever-diminishing results and ever-
                 increasing difficulty justifying costs.


                 Recommendations
                 Recommendation 2
                 We recommend that the Under Secretary of Defense for Policy:

                      a.	 Task the Director of the new Defense agency to develop a strategic
                          plan for the missing in action accounting community.

                 Under Secretary of Defense for Policy Comments
                 The Under Secretary of Defense for Policy concurred with comment to
                 Recommendation 2.a. The Director of the new Defense agency will develop and
                 implement a strategic plan to focus on mission priorities.

                 Our Response
                 The comments from the Under Secretary of Defense are responsive for
                 Recommendation 2.a. DoD OIG will follow up in six months with a request to see
                 the strategic plan.




16 │ DODIG-2015-001
                                                                                    Part II – Mission



     b.	 In support of the Secretary of Defense’s direction for organizational
         change, detailed on page 3, number 8 of this report, task the Director
         of the new Defense agency to define goals, objectives, metrics,
         milestones, and an end-state, as well as “sunset” criteria for the
         respective sub-missions of the missing in action accounting community.

Under Secretary of Defense for Policy Comments
The Under Secretary of Defense for Policy concurred with comment to
Recommendation 2.b. As part of the personnel accounting community
reorganization, the Personnel Accounting Consolidation Task Force is conducting
a comprehensive analysis of DoD’s personnel accounting mission and will define
milestones and metrics to measure progress and effectiveness for the new Defense
agency. The mission of accounting for missing personnel from past conflicts cannot
and should not continue in perpetuity; thus, criteria for completion of the personnel
accounting mission will be established.

Our Response
The comments from the Under Secretary of Defense for Policy are responsive for
Recommendation 2.b. DoD OIG will follow up in six months to request and review
the goals, objectives, metrics, milestones, end-state, and sunset criteria of the
new agency.




                                                                                    DODIG-2015-001 │ 17
                                                                                    Part II – Mission




Observation 3
Unified Command Plan Needs Updating
The Unified Command Plan does not define the role of the combatant commands
in supporting the MIA accounting mission.

This has occurred because of a lack of clear and comprehensive DoD planning
that addresses the global nature of recovery operations and the importance of the
contributions of the respective combatant commands.

As a result, the accounting community has been hindered in accomplishing its
worldwide mission to recover the remains of MIAs and the combatant commands
have lacked the necessary guidance to ensure they provide the support required
by the accounting community.



Discussion
The Unified Command Plan is a key DoD strategic document that establishes the
missions, responsibilities, and geographic areas of responsibility for commanders
of the combatant commands. The Chairman of the Joint Chiefs of Staff reviews
and updates the plan biennially, at a minimum, although it can be updated anytime
based on changing strategic, political, or budgetary requirements.

The current Unified Command Plan does not define the roles and responsibilities
of the combatant commands in support of the DoD worldwide missing personnel
accounting mission.

Today, there are approximately 55,000 MIAs in the U.S. Pacific Command area of
responsibility, another 24,000 in that of the U.S. European Command, and more
than 3,000 scattered throughout the U.S. Northern Command, the U.S. Southern
Command, the U.S. Africa Command, and the U.S. Central Command areas
of responsibility.

Currently, JPAC is a direct reporting unit to the U.S. Pacific Command, which
provides JPAC with personnel, logistics and financial support. This arrangement
was satisfactory when JPAC and its predecessor organizations were primarily
focused on recovering and identifying MIAs in Southeast Asia and Korea. However,
since 2010, when Congress expanded the accounting mission to include MIAs from
World War II, the mission has become a worldwide endeavor. In response, the
U.S. Pacific Command, on behalf of JPAC, established a memorandum of agreement




                                                                                    DODIG-2015-001 │ 19
Part II – Mission



                 with the U.S. European Command that defined the appropriate level of support for
                 the accounting mission. However, JPAC does not have such an agreement with any
                 other combatant command where its recovery operations have to be executed.

                 Given the accounting community’s challenges and complexities of operating within
                 multiple combatant commands and countries, each combatant command would
                 benefit from having clearly defined mission support roles and responsibilities
                 included in the Unified Command Plan.


                 Recommendation
                 Redirected Recommendation
                 As a result of management comments from The Chairman of the Joint Chiefs of
                 Staff, we redirected Recommendation 3 to the Secretary of Defense, who has the
                 authority to implement the recommendation. The Chief of Staff for Strategic Plans
                 and Policy, responding for The Chairman of the Joint Chiefs of Staff, concurred
                 with comment to Recommendation 3. The Chief of Staff for Strategic Plans and
                 Policy commented that this recommendation should be redirected to the Secretary
                 of Defense because the Chairman of the Joint Chiefs of Staff would not direct the
                 combatant commands.

                 Recommendation 3
                 We recommend that the Secretary of Defense designate all combatant
                 commands as supporting commands to the missing in action accounting
                 mission and define each combatant command’s supporting role and
                 responsibilities.

                 Management Comments Required.
                 Because we redirected this recommendation from the Joint Chiefs of Staff to the
                 Secretary of Defense on a draft of this report, we request the Secretary’s comments
                 on Recommendation 3 in response to the final report.




20 │ DODIG-2015-001
                                     Part III – Regulations, Policies, and Statues




Part III
Regulations, Policies, and Statues




                                                                DODIG-2015-001 │ 21
                                                                                         Part III – Regulations, Policies, and Statues




Observation 4
Accounting Community Policies, Guidance, and
Standard Operating Procedures
Current policies and guidance supporting the accounting community are out of date
and incomplete. In addition, many functions the accounting community performed
do not have SOPs.

This occurred because the accounting community is not unified under a single
chain of command with a clearly defined and agreed-upon mission.

Without clear and comprehensive guidance, the accounting community lacked the
necessary direction to ensure it is able to carry out its intended mission.



Discussion
There are two DoD issuances that establish current policy and provide guidance for
accounting community operations:

          •	 DoD Directive 2310.07E, “Personnel Accounting – Losses Due to Hostile
             Acts” – last certified current in 2007; revision currently in draft.9
          •	 DoD Instruction 2310.mm, “Locating, Recovering, and Identifying Remains
             of Missing Persons After Hostilities Have Ceased” – currently in draft.10

DoD guidance states that, prior to the 5-year anniversary of their publication
date, all issuances (to include directives and instructions) must be reviewed to
determine if they are necessary, current, and consistent with DoD policy, existing
law, and statutory authority. They will be reissued, certified as current, or
cancelled, as appropriate.11

DoD Directive 2310.07E, however, has not been reissued or certified current since
August 2007, while DoD Instruction 2310.mm has been in draft form for more than
2 years. This is primarily due to the fact that DPMO and JPAC have been unable to
formally coordinate and agree on the content of the proposed instruction—JPAC
has non-concurred with the issuance as currently drafted.




	9	
       DoD Directive 2310.07E establishes policy and assigns responsibilities for personnel accounting for losses resulting
       from hostile acts.
	10	
       DoD Instruction 2310.mm, as currently drafted, implements and establishes policy, assigns responsibility, and provides
       guidance for locating, recovering, and identifying remains of unaccounted for DoD personnel from past conflicts.
	11	
       DoD Instruction 5025.01, “DoD Directives Program,” August 20, 2013.




                                                                                                                                DODIG-2015-001 │ 23
Part III – Regulations, Policies, and Statues



                 As previously stated, DPMO and JPAC report through different chains of command,
                 each with differing mission statements. This contributed to the two organization’s
                 divergent views on policies and procedures governing the accounting community’s
                 activities. As a result, they have been unable to resolve the non-concurrence,
                 delaying the issuance of DoD Instruction 2310.mm. DPMO proposed updating DoD
                 Directive 2310.07 as an interim solution, but this process has been placed on hold
                 pending the upcoming reorganization of the accounting community.

                 These long-standing disagreements within the accounting community regarding the
                 fundamental aspects of the mission have contributed to uncertainty, inefficiency,
                 and ineffectiveness in conducting accounting community operations, as well as the
                 inability to publish necessary policies and guidance.

                 This assessment also revealed that functions performed by various sections
                 within JPAC did not have current or, in some instances, any standard operating
                 procedures. This lack of SOPs has contributed to preventable levels of inefficiency
                 and ineffectiveness within JPAC.

                 The Secretary of Defense-directed reorganization detailed on page 3, number 7
                 of this report partially addresses this observation.


                 Recommendation
                 Recommendation 4
                 The Under Secretary of Defense for Policy, task the Director of the new
                 Defense agency to establish standard operating procedures for accounting
                 community organizations where they do not exist, and review and revise as
                 needed all existing standard operating procedures.

                 Under Secretary of Defense for Policy Comments
                 The Under Secretary of Defense for Policy concurred with comment to
                 Recommendation 4. The Personnel Accounting Consolidation Task Force is
                 collecting standard operating procedures from all entities within the accounting
                 community to be reviewed and updated, eliminated, or reissued. In any instances
                 where standard operating procedures do not exist, they will be created
                 and implemented.

                 Our Response
                 The comments from the Under Secretary of Defense for Policy are responsive for
                 Recommendation 4. DoD OIG will follow-up at a later date with a request for a copy
                 of the standard operating procedures for the accounting community.




24 │ DODIG-2015-001
                                                            Part III – Regulations, Policies, and Statues




Observation 5
Lack of Disinterment Policy
The DoD lacks a Department-wide disinterment policy that facilitates the
identification of the remains of the thousands of U.S. service personnel killed in
past wars who remain buried as “unknowns.”

This occurred because DoD did not clearly designate an organization with
responsibility for developing and maintaining a disinterment policy.

As a result, there has been confusion between the Services and resulting inaction
within the accounting community organizations due to the lack of a clear definition
of authorities and processes for disinterring missing personnel currently buried
as “unknowns.” Consequently, the DoD accounting community has been unable
to pursue an aggressive plan for disinterring remains designated as “unknowns,”
preventing resulting MIA identifications and appropriate repatriations.



Discussion
Per discussions with DPMO, JPAC, and Office of the Under Secretary of Defense for
Personnel and Readiness (USD[P&R]) officials, it was reported that USD(P&R) was
designated as the agency responsible for establishing disinterment policy. However,
the DoD OIG assessment team could identify only one possible DoD disinterment
policy statement, described in a 1999 memo written by a former USD(P). The
policy memo is classified as a directive-type memorandum; however, according to
DoD Instruction 5025.01, directive-type memorandums are effective for no more
than six months from the date signed, unless an extension is approved by the
Director of Administration and Management or it is subsequently incorporated
into a DoD instruction. Therefore, even if USD(P) was once authorized to issue
disinterment policy, the memorandum is no longer in effect since it was neither
extended nor eventually incorporated into a DoD instruction.

The assessment revealed confusion within the accounting community as to who
has the authority to approve disinterments. Given this lack of policy clarity,
decisions to disinter are made on a case-by-case basis, occasionally resulting in
disagreements between the Services and the accounting community, and impeding
an aggressive community plan to identify the remains of service personnel buried
as “unknowns.”




                                                                                       DODIG-2015-001 │ 25
Part III – Regulations, Policies, and Statues



                 In the absence of clearly defined DoD policy, JPAC’s disinterment efforts have
                 been limited. Because of traditional practices, the Navy is unwilling to approve
                 disinterments for sailors considered “lost at sea” and subsequently recovered and
                 buried on land as unknowns. Even though with current technology JPAC would be
                 able to identify a number of these unknowns, they are unable to disinter the remains.
                 These potential disinterments apply to World War II personnel identified as lost at
                 sea during the attack on Pearl Harbor and who remain buried as unknowns.12

                 JPAC has determined it is feasible to conduct disinterments and account for those
                 personnel considered lost at sea in certain specific situations, such as those listed
                 as missing in Hawaii who were killed when the USS Oklahoma sank and who are
                 currently buried as unknowns at the National Memorial Cemetery of the Pacific
                 in Hawaii. However, the Department of the Navy has been reluctant to authorize
                 these unknowns to be disinterred. JPAC officials stated they could potentially
                 account for more than 300 unaccounted-for personnel believed to be from the
                 USS Oklahoma currently buried as unknowns in Hawaii.

                 In 2012, USD(P&R) established a working group to develop a disinterment
                 policy. This proposed policy is still in draft form but will be required by the new
                 personnel accounting agency to accelerate the identification of remains consistent
                 with congressional intent and the needs of surviving family members.


                 Recommendation
                 Recommendation 5
                 The Under Secretary of Defense for Personnel and Readiness, establish DoD-
                 wide policy regarding the disinterment of unknowns from past conflicts.

                 Under Secretary of Defense for Personnel and Readiness Comments
                 The Deputy Assistant Secretary of Defense (Military Community and Family
                 Policy), responding for the Under Secretary of Defense for Personnel and Readiness,
                 concurred with comment to Recommendation 5. A Lean Six Sigma study was
                 conducted in 2012 and a draft DoD Instruction on mortuary affairs, which includes
                 policy on disinterments, is being staffed at this time.

                 Our Response
                 The comments from the Under Secretary of Defense for Personnel and Readiness
                 are responsive for Recommendation 5. DoD OIG will follow-up in six months with a
                 request for a copy of the approved DoD Instruction on Mortuary Affairs.

                 	12	
                        In these instances, individuals perished with the sinking of their ship, but their remains were subsequently recovered
                        and buried on land as “unknowns.”




26 │ DODIG-2015-001
             Part IV – Operations




Part IV
Operations




                DODIG-2015-001 │ 27
                                                                                 Part IV – Operations




Observation 6
Lack of a Centralized, Definitive Database
Identifying MIAs
The accounting community does not have a single, centralized, comprehensive
database that lists all MIAs from past conflicts, beginning with World War II.

The lack of coordination between key members of the accounting community has
led to the development of separate databases.

Without a comprehensive and agreed-upon listing of MIAs from all past conflicts,
the accounting community has been unable to effectively know who is actually
missing, focus its recovery efforts accordingly, and effectively plan the recovery
of the missing.



Discussion
DPMO and JPAC have developed and maintained separate and different databases
that list the missing from past conflicts which have not been reconciled. In
addition, the SCOs maintain their own Service-specific lists detailing names and
numbers of the missing, which are different from the lists maintained by DPMO
and JPAC. As a result, the SCOs may not be reporting a common DoD picture of the
missing to the families of missing persons.

Moreover, without a single, complete, and agreed-upon DoD database listing all
MIAs, it has been impossible to know exactly who the community is responsible for
recovering and to be able to effectively plan community-wide MIA recovery activities.
Community members do not want to expend resources on those MIAs who have
little chance of being recovered given current technology, primarily World War
II personnel lost over deep water. Consequently, the accounting community’s
recovery planning and processes have not been well-focused or efficient.

A single comprehensive database listing all MIAs from past conflicts, certified
as complete and official by the DoD for use by the entire accounting community,
is essential to plan and implement informed future recovery operations. Such a
database would enable the accounting community to reevaluate and update strategic




                                                                                     DODIG-2015-001 │ 29
Part IV – Operations



                 and operational planning to reflect current and anticipated demand for recovery
                 work, to include organizing the required number and location of detachments
                 (semi-permanent regional offices) that logistically support excavation activities.

                 Having the clarity provided by a complete, centralized MIA database is necessary
                 to reassure families, and other concerned members of the community who directly
                 support them, that our MIAs are not also “missing” from the records of those for
                 whom DoD is responsible for recovering.




30 │ DODIG-2015-001
                                                                                                                          Part IV – Operations




Observation 7
Non-recoverable Missing Persons
DoD MIA records reflect that there are an estimated 50,000 personnel still
considered missing in action, whose ships or aircraft were lost at sea, mostly in
World War II, even though their remains are not likely recoverable.

This occurred because DoD does not have uniform criteria and policies across
conflicts to categorize and declare a missing person as not likely to be recoverable.

As a result, family members, Congress, and the public may mistakenly believe that
it is feasible for DoD to actively pursue the recovery of all 83,000 MIA personnel.
This may also present the illusion that DoD should be focusing their recovery
efforts on all 83,000 missing rather than just those who are potentially recoverable.



Discussion
DoD reporting on the number of missing is misleading. Approximately 50,000 of
the more than 83,000 Americans still listed as missing and unaccounted for from
past conflicts, primarily World War II, were lost in ships or aircraft that went
down in deep water and are likely non-recoverable. Given the limitation of current
technology, the recovery of any physical remains is highly unlikely.

At present, though, there is no definition of status that addresses the cases of those
personnel still listed as missing who are realistically not recoverable, especially
those lost at sea. If DoD established policy criteria to make a “non-recoverable”
determination, many MIA cases could be re-categorized and the families notified
that DoD will no longer actively pursue these cases.

With the approximately 73,000 World War II missing having been added for
recovery since Congress passed related legislation in 2010,13 the lack of accurate
and appropriately categorized records identifying those who are realistically non-
recoverable may prevent the accounting community from focusing their efforts on
the missing personnel that are actually recoverable.

Accurately and appropriately categorizing World War II MIAs will help DoD focus
its efforts to collect family reference samples for the missing who are more likely
to be recovered. For example, deoxyribonucleic acid (DNA) testing of remains
requires a family reference sample (a DNA sample taken from a family member of


	13	
       Public Law 111-84, “National Defense Authorization Act for Fiscal Year 2010,” Section 541, October 28, 2009—this
       legislation added World War II to the accounting community’s mission.




                                                                                                                             DODIG-2015-001 │ 31
Part IV – Operations



                 the missing individual) to make a comparison against. To date, there is greater
                 than 80 percent family reference sample coverage for Korea and Southeast Asia
                 MIAs, but less than 5 percent coverage for World War II missing. World War
                 II family reference sample coverage is low due to not having an appropriate
                 categorization of the missing and community members not wanting to expend
                 resources on personnel who will probably never be recovered.

                 Addressing this issue would enable a more efficient and effective use of limited
                 resources to increase the rate of recoveries and identifications.


                 Recommendations
                 Recommendation 7
                 In support of the Secretary of Defense’s direction for organizational change,
                 detailed on page 3, numbers 6 and 9, the Under Secretary of Defense for
                 Policy should task the Director of the new Defense agency to:

                       a.	 Develop and implement policy criteria for addressing who among the
                           missing personnel are realistically recoverable and appropriately re-
                           designate a category for personnel determined to be non-recoverable,
                           especially those lost at sea.

                 Under Secretary of Defense for Policy Comments
                 The Under Secretary of Defense for Policy concurred with comment to
                 Recommendation 7.a. Work on developing this policy criteria is already underway
                 at the Joint Prisoner of War/Missing in Action Accounting Command and the
                 Defense Prisoner of War/Missing Personnel Office and can be incorporated into the
                 new Defense agency.

                 Our Response
                 The comments from the Under Secretary of Defense for Policy are responsive for
                 Recommendation 7.a. DoD OIG will follow-up at a later date with a request for a
                 copy of the policy criteria for the accounting community.

                 Under Secretary of Defense for Personnel and Readiness Comments
                 The Deputy Assistant Secretary of Defense (Military Community and Family
                 Policy), responding for the Under Secretary of Defense for Personnel and Readiness,
                 submitted unsolicited comments on this recommendation. The Deputy Assistant
                 Secretary requested the recommendation be redirected to the Under Secretary
                 of Defense for Personnel and Readiness as they are responsible for establishing
                 casualty categories.




32 │ DODIG-2015-001
                                                                                Part IV – Operations



Our Response
The Secretary of Defense tasked the Personnel Accounting Consolidation Task Force
through the Under Secretary of Defense for Policy to reorganize the accounting
community. We agree and suggest the Under Secretary of Defense for Personnel
and Readiness work with the Personnel Accounting Consolidation Task Force to
develop the appropriate and correct categories.

     b.	 Direct the service casualty offices to inform the families of
         any change in status for missing persons determined to be
         non-recoverable.

Under Secretary of Defense for Policy Comments
The Under Secretary of Defense for Policy concurred with comment to
Recommendation 7.b. The responsibilities of the service casualty officers will
remain with the Services, but the new Defense agency will work closely with them
and the Services to ensure that the families are properly notified of all changes in
the status of missing personnel, including those determined to be non-recoverable.

Our Response
The comments from the Under Secretary of Defense for Policy are responsive for
Recommendation 7.b. No further comments are required at this time.




                                                                                       DODIG-2015-001 │ 33
                                                                                    Part IV – Operations




Observation 8
Identifications Limited by Current Methods
of Accounting
Past conflict accounting identifications are limited by the sole method of accounting
authorized by congressional statute.

According to this provision of the law, human remains must be recovered and
identified in order for an individual to be considered accounted for. The law
does not authorize the use of credible material and/or circumstantial evidence to
support the determination of an MIA person’s status.

As a result, there are a number of missing individuals lost in catastrophic events
which left no remains behind, but who could be accounted for based on persuasive
material and/or circumstantial evidence that they were killed in action. Under
current law they will remain unaccounted for indefinitely.



Discussion
In section 1513, title 10, United States Code (10 U.S.C., §1513 [2013]), the term
“accounted for” with respect to a person in a missing status, means that:

     (A)	the person is returned to U.S. control alive;
     (B)	the remains of the person are recovered and, if not identifiable through
         visual means as those of the missing person, are identified as those of the
         missing person by a practitioner of an appropriate forensic science; or
     (C)	credible evidence exists to support another determination of the
         person’s status.

However, for those individuals who are unaccounted for from past conflicts, 10
U.S.C. §1509 (2013) further narrows the definition of “accounted for” as “the
meaning given such term in section 1513 (3)(B) of title 10, United States Code.”
In other words, physical remains are necessary for an MIA to be considered
“accounted for.”

The definition does not take into account those cases of missing individuals whose
remains will likely never be recovered, even though credible evidence exists to
substantiate that they were killed in action. This includes individuals who may
have been killed in catastrophic air or ground events which left no remains behind
or, in some instances, those lost at sea.




                                                                                       DODIG-2015-001 │ 35
Part IV – Operations



                 There are MIA examples from Southeast Asia in which remnants of the aircraft
                 and life support equipment – but no remains – were found by JPAC teams in the
                 area where the plane crashed, and reliable analysis determined the pilots were on
                 board when it crashed. These service personnel are still listed as unaccounted for.
                 Furthermore, those seamen who were aboard the USS Arizona and USS Utah, for
                 example, when they sank in Pearl Harbor are also still considered unaccounted for.
                 The community is fully aware of their location on board the ships when they went
                 down and that they did not survive, yet they remain unaccounted for.

                 JPAC personnel maintain that up to 200 additional identifications could be
                 made from existing Southeast Asia cases through the use of material and/
                 or circumstantial evidence based on analysis provided by LSEL. Without
                 authorization to use this credible evidence to support identifications, service
                 personnel who could otherwise be accounted for without the recovery of remains
                 are now relegated to a status of “unaccounted for” indefinitely.


                 Recommendations
                 Recommendation 8.a
                 The Secretary of Defense, request that Congress amend 10 U.S.C §1509 (2013)
                 to authorize the use of material and/or circumstantial evidence, absent any
                 human remains, to account for personnel who are currently designated
                 as missing.

                 Secretary of Defense Comments
                 The Secretary of Defense concurred with Recommendation 8.a without comment.


                 Our Response
                 The comments from the Secretary of Defense are partially responsive to
                 recommendation 8.a. While the Secretary of Defense concurred with the
                 recommendation he did not provide any details regarding what action would be
                 taken. We recognize that the legislative process is an annual occurrence that will
                 not present an opportunity again until next year. When the next legislative cycle
                 occurs, DoD OIG will ask that the Secretary of Defense provide more information
                 detailing the request to Congress to amend 10 U.S.C. §1509.




36 │ DODIG-2015-001
                                                                                 Part IV – Operations



Recommendation 8.b
If Congress makes the legislative change recommended in 8.a, the Under
Secretary of Defense for Policy should task the Director of the new Defense
agency to develop guidance governing when and how credible circumstantial
evidence can be used to make identifications.

Under Secretary of Defense for Policy Comments
The Under Secretary of Defense for Policy concurred with comment to
Recommendation 8.b. The Director of the new Defense agency will direct the
development of a process to use credible circumstantial evidence other than human
remains to account for an individual if there is a change to the law.

Our Response
The comments from the Under Secretary of Defense for Policy are responsive for
Recommendation 8.b. DoD OIG will follow-up at a later date with a request for a
copy of the processes to be used to account for the missing, if there is a change to
the law.




                                                                                       DODIG-2015-001 │ 37
                                                                                Part IV – Operations




Observation 9
Lack of Coordination with Combatant Commands,
Department of State, and Host Nation Governments
JPAC and DPMO have not consistently coordinated joint field activities in advance
with DoD, the concerned combatant command, the relevant U.S. Embassy, and
the host nation government of the country in which they seek to conduct
recovery operations.

This occurred because of a lack of SOPs, command oversight, and interagency
planning.

As a result, the recovery of remains through joint field activities has been hindered
and relations with host nation governments potentially jeopardized.



Discussion
JPAC and DPMO have not appropriately coordinated all joint field activities with
U.S. military commands in Europe and South Korea, and Embassy country teams
and host governments (with the exception of Vietnam and South Korea). JPAC
and DPMO teams deployed in the field have at times operated outside the local
military chain of command and failed to notify our Embassy and appropriate local
government officials of their presence and operations. In some cases, this has
created friction between JPAC and the combatant commands, our Embassies, and
local authorities.

Our team identified a number of instances related to joint field activities in which
there were perceived or actual violations of local laws regarding the attempted
removal from the country of human remains. According to 10 U.S.C. §1501
(2013), DPMO is responsible for coordinating on behalf of the DoD with other U.S.
departments and agencies on all matters concerning missing persons. However, the
DoD OIG team observed no evidence of any coordination between DPMO and U.S.
country teams in those nations in which JPAC joint field activities were conducted,
nor any coordination between DPMO and JPAC. This, again, stems from the fact
that DPMO and JPAC work and report through parallel chains of command, with an
apparent disconnect in communication between the two organizations and other
agencies, especially with the U.S. Embassy. The reorganization of the accounting
community into a single new Defense agency will need to address conducting
necessary coordination in advance of proposed field missions.




                                                                                    DODIG-2015-001 │ 39
Part IV – Operations



                 Currently, joint field activities are being conducted by JPAC in coordination
                 with host country organizations which include the VNOSMP, Cambodia POW/
                 MIA Committee, Lao POW/MIA Team, and MAKRI. These organizations support
                 publicizing upcoming JPAC joint field activities and interviewing those that come
                 forward with information. This contributes to better host nation relations and
                 increases the flow of information used to find missing U.S. service members.
                 Consideration should be given to replicating this successful host country model
                 with other nations where recovery operations are likely to begin or be increased,
                 and where obtaining new leads on missing personnel are or will be difficult
                 without local cooperation and support.

                 Non-governmental organizations, universities, and private groups are currently
                 conducting both investigations and recoveries of remains of missing persons
                 around the world, including in Europe and on the island of Tarawa in the Republic
                 of Kiribati. Some of these expeditions have proved fruitful while others have
                 hindered on-going or potential JPAC missions. The new Defense agency should
                 develop cooperative relationships (or further develop as required) with these
                 organizations and work to codify the relationships, including protocols for how
                 the U.S. Government should conduct their work in the field in concert with these
                 organizations.


                 Recommendations
                 Recommendation 9
                 The Under Secretary of Defense for Policy, task the Director of the new
                 Defense agency to:

                       a.	 Coordinate joint field activities with DoD civilian and military chains
                           of command, including the appropriate combatant command, as
                           well as the U.S. Embassy and host nation government before any
                           operational deployment to a foreign country.

                 Under Secretary of Defense for Policy Comments
                 The Under Secretary of Defense for Policy concurred with comment to
                 Recommendation 9.a. The new Defense agency will work closely with Under
                 Secretary of Defense for Policy regional offices and other Defense entities to ensure
                 appropriate coordination of activities.




40 │ DODIG-2015-001
                                                                            Part IV – Operations



Our Response
The comments from the Under Secretary of Defense for Policy are responsive for
Recommendation 9.a. No further comments are required at this time.

     b.	 Consider requesting host nation governments to develop their
         internal capability to support U.S. recovery operations within their
         countries.

Under Secretary of Defense for Policy Comments
The Under Secretary of Defense for Policy concurred with Recommendation 9.b.
The new Defense agency Director will request host nation governments develop
their internal capabilities to support U.S. recovery operations.

Our Response
The comments from the Under Secretary of Defense for Policy are responsive for
Recommendation 9.b. No further comments are required at this time.




                                                                                 DODIG-2015-001 │ 41
            Part V – Structure




Part V
Structure




             DODIG-2015-001 │ 43
                                                                                         Part V – Structure




Observation 10
Duplication of Personnel and Functions within the
Accounting Community
DPMO and JPAC currently duplicate staff personnel and functions in the areas of
legal, policy and plans, external communications, and research and analysis (R&A).

This occurred because the personnel accounting mission, of which DPMO and JPAC
are the two main components, is conducted by multiple organizations reporting
through parallel chains of command.

As a result, this has led to duplication of functional effort, conflict over roles and
responsibilities, and the inefficient use of resources.



Discussion
As previously discussed, DPMO and JPAC are separate organizations operating
in parallel chains of command. In support of the mission, they conduct similar
functions in a number of areas without a formal understanding and definition of
the responsibilities of their respective comparable functional work. This has led
to overlap and duplication, in particular in the functional areas of legal, policy and
plans, external communications, and R&A.

Additionally, JPAC itself has two sections conducting historical research: the formal
R&A staff group at its headquarters, plus another research section within the CIL,
which at a minimum appear to have overlapping responsibilities.

Moreover, DPMO and JPAC both have sections that develop policies and plans.
Each have external communications groups which can cause public confusion if
they do not coordinate their public relations narrative, creating the opportunity
for dissemination of conflicting information to key outside stakeholders such as
families and Congress. Further, the CIL also duplicates analytical work performed
by LSEL (other than the life science investigations performed in the field by
CIL personnel).

In addition to the duplication of certain personnel functions, JPAC may be facing
the loss high quality military officer billets. JPAC officials expressed concern
about the number of joint qualifying billets assigned to the command now being
reduced from 16 to only 4 (one from each service). DPMO, however, has not had




                                                                                          DODIG-2015-001 │ 45
Part V – Structure



                 their assigned number of 13 reduced. Each of the Services provides officers for this
                 important mission. According to JPAC personnel, the loss of joint qualifying billets,
                 if realized, could serve as a disincentive to attracting high quality officers the new
                 agency will need in order to accomplish the mission.

                 The reorganization of the accounting community announced by the Secretary of
                 Defense will serve to reduce these functional duplications by combining DPMO,
                 JPAC, and elements of the LSEL into a new, streamlined Defense agency. In support
                 of this reorganization and to help reduce functional duplication, DoD will need
                 to determine the appropriate capabilities and related positions, both military
                 and civilian, as well as the number of those positions required and their
                 grade/rank structure.


                 Recommendations
                 Revised Recommendation
                 As a result of management comments, we revised Recommendations 10.a.1
                 and 10.a.2 to indicate that the Under Secretary of Defense for Policy rather
                 than the Under Secretary for Personnel and Readiness should implement
                 the recommendation. The Secretary of Defense concurred with comment
                 to Recommendations 10.a.1 and 10.a.2 and then requested that these
                 recommendations be redirected from the Under Secretary of Defense for Personnel
                 and Readiness to the Under Secretary of Defense for Policy for action.

                 Recommendation 10.a
                 The Secretary of Defense, in implementing his directed reorganization,
                 detailed on page 2, number 1 of this report, should direct the Under Secretary
                 of Defense for Policy to:

                 	    1)	 Conduct a management study to identify/define functions and
                          personnel positions required for the restructured organization.
                 	    2)	 Ensure that position descriptions for existing and proposed personnel
                          billets required in support of the new agency’s operations eliminate
                          duplication and redundancy, and that the grade structures are
                          “right-sized” consistent with similar duties performed across
                          the organization.




46 │ DODIG-2015-001
                                                                               Part V – Structure



Recommendation 10.b
The Under Secretary of Defense for Policy, task the Director of the new
Defense agency to review the requirements for military personnel to
determine the appropriate number of billets and rank structure, and the
required number of joint qualifying billets.

Under Secretary of Defense for Policy Comments
The Under Secretary of Defense for Policy concurred with comment to
Recommendation 10.b. As part of the implementation plan, the Personnel
Accounting Consolidation Task Force will determine the appropriate number of
military billets and their corresponding ranks.

Our Response
The comments from the Under Secretary of Defense for Policy are responsive for
Recommendation 10.b. DoD OIG will follow-up at a later date with a request for an
update on the military personnel requirements for the new agency.




                                                                                    DODIG-2015-001 │ 47
           Part VI – Travel




Part VI
Travel




          DODIG-2015-001 │ 49
                                                                                                                           Part VI – Travel




Observation 11
Assessment of JPAC Travel Processes and Procedures
JPAC personnel were not consistently conducting temporary duty (TDY) travel in
compliance with applicable guidance. Specifically, for the 19 travel records that
we analyzed in detail, 17 were not fully compliant with Federal and DoD guidance.
Additionally, JPAC personnel did not always ensure that FY cross-over travel was
allocated to the proper FY line of accounting (LOA)—resulting in non-compliance
with the bona fide needs rule outlined in section 1502(a), title 31, United States
Code (31 U.S.C. § 1502(a) [1982]). This occurred because JPAC management had
not updated internal travel policy and had not properly established its Defense
Travel System (DTS) user roles. As a result, JPAC made at least $1,434 of improper
payments14 on 8 of the 17 non-compliant TDY vouchers and may have violated the
Antideficiency Act. Further, JPAC is at an increased risk for additional improper
payments, fraud, waste, and abuse associated with TDY travel.

	14	
       An improper payment is a payment that should not have been made or was made in an incorrect amount. This includes
       expenses that did not have adequate supporting documentation.




Assessment Objective
Our assessment objective was to determine if JPAC TDY travel was conducted in
accordance with applicable guidance. We reviewed JPAC TDY travel records from
September 2012 through September 2013, which consisted of approximately 1,471
vouchers, valued at about $7.6 million. For that review, we performed a detailed
analysis of 19 of the 1,471 travel records, valued at $63,984, which included review
of the travel authorization, travel voucher, and other supporting documentation.


Non-Compliant Travel
JPAC personnel were not consistently conducting TDY travel in compliance with
applicable guidance. Of the 19 travel records that we analyzed in detail, 17 were
not completed in compliance with Federal and DoD guidance, as shown in Table 1
(page 52), and resulted in $1,434 in improper payments on eight vouchers.




                                                                                                                       DODIG-2015-001 │ 51
Part VI – Travel



                   Table 1. Non-compliant Vouchers

                                                                                                                 Number         Improper
                            Element of             Applicable                                                    of Non-        Payments
                                                                          Guidance Requirement
                          Noncompliance            Guidance                                                     Compliant         Made
                                                                                                                Vouchers*         (Y/N)
                                                                   Travelers should complete and
                      Timely Voucher              JFTR/JTR         submit travel vouchers within                     8               N
                      Submission                  Ch 1 Part B      5 working days after returning
                                                                   from a TDY trip.
                        When Non-DTS
                   							                                                          Entry Agents 15
                                                                   enter data for a traveler, they
                      Submission of               DoD FMR          must electronically fax or upload
                      Manually Signed                                                                                9               N
                                                  Vol 9 Ch 2       the traveler’s signed (written
                      TDY Voucher                                  signature) DD Form 1351-2, to be
                                                                   attached to the DTS voucher.
                                                                   Specific travel conditions must be
                      Use of Non-                                  certified on the travel document
                                                                   provided by the traveler or
                      General Services            JFTR/JTR         authorizing official if a non-                    1               N
                      Administration              Appendix P       contract carrier or other than the
                      Contract Carrier                             primary contractor is used for
                                                                   travel within a contract route.
                                                                   Reimbursement for lodging is
                      Insufficient                                 not to exceed the maximum
                      Justification for           JFTR/JTR         per diem rate unless an actual                    3               Y
                      Lodging Exceeded            Ch 4 Part B      expense allowance is authorized
                      Standard Allowance                           or approved.
                      Meals and                                    Reimbursement for meals and
                      Incidentals Expense         JFTR/JTR         incidentals should be paid based                  2               Y
                      Exceeded Standard           Ch 4 Part B      on the locality concerned.
                      Allowance
                                                  DoD FMR          Travelers must attach supporting
                      Receipts Not                Vol 9 Ch 2       documents including receipts for                  3               Y
                      Included                    and 5            claimed expenses of $75 or more.
                                                                   The Government travel card
                      Government Travel           JFTR/JTR         should be used by DoD personnel                   4               N
                      Card Not Used               Ch 2 Part G      to pay for all costs incidental to
                                                                   official business travel.
                                                                   A reasonable rest period at
                                                                   the TDY point may be provided
                                                                   when: flight time exceeds
                                                                   14 hours; en route rest stop is
                                                                   not authorized/approved; travel
                      Unauthorized Rest           JFTR/JTR         during rest hours and traveler                    1               Y
                      Periods Taken               Ch 4 Part D      is not authorized first/business
                                                                   accommodations; travel location
                                                                   is outside of the continental
                                                                   U.S.; or traveler is required to
                                                                   travel overnight.
                      * The number of vouchers will not equal the total number of 17 vouchers because vouchers had
                      more than one element of noncompliance.


                   	15	
                          A Non-DTS Entry Agent enters claims for reimbursement in DTS on someone else’s behalf when the traveler does not
                          have reasonable access to DTS.




52 │ DODIG-2015-001
                                                                                       Part VI – Travel



Funding Travel
JPAC authorizing officials did not always ensure that FY cross-over travel was
allocated to the proper FY LOA. Section 1502(a), title 31, United States Code states
that, “A fiscal year appropriation may be obligated only to meet a bona fide or
legitimate need arising in the fiscal year for which the appropriation was made.”
Additionally, DoD Regulation 7000.14-R, “DoD Financial Management Regulation”
(DoD FMR), volume 9, chapter 2, states that funding for travel that crosses over
two FYs must be split between the two FYs. However, in at least 20 instances, JPAC
officials approved TDY vouchers for cross-over trips that allocated expenses to one
FY LOA only. For example, an authorizing official approved a voucher for $3,963
that used a FY 2012 LOA for the traveler’s entire trip to Virginia even though the
traveler departed on September 29, 2012, and returned on November 3, 2012.
The JPAC Commander needs to initiate a preliminary review in accordance
with DoD FMR volume 14, chapter 3 to determine whether JPAC violated the
Antideficiency Act, and, if it did, recommend corrective actions, including actions
for responsible officials.


Outdated Travel Policy
JPAC has not updated JPAC Instruction 4650.1, “Travel Management Control,”
November 2005, which contains outdated policies and procedures. For example,
JPAC Instruction 4650.1 includes policies and procedures for manual travel
vouchers and blanket travel orders, which according to JPAC personnel are no
longer used to conduct travel. Prior to our assessment, JPAC was revising its travel
instruction. The JPAC Chief of Staff stated the updated instruction would be issued
by the end of June 2014. JPAC should ensure the instruction specifies the travel
process from beginning to end, the roles and responsibilities of personnel, and
controls to ensure that JPAC TDY travel complies with applicable travel regulations.


Improper DTS User Roles and Permissions
JPAC did not properly structure its DTS user roles and permissions to ensure
compliance with DoD guidance. DoD FMR volume 9, chapter 2 states that
authorizing officials are responsible for, “determining the necessity of trips and
funds availability, authorizing travel, assigning the proper line of accounting
prior to authorization, and approving/certifying travel claims for validity after
completion of travel. The authorizing official must be the individual who controls
the mission, authorizes the trip, and controls funds for TDY travel.” JPAC’s
authorizing officials are in the Manpower and Personnel (M&P) Directorate. M&P
Directorate personnel do not control the mission or travel funds. For example,
planners from the Operations Directorate meet to determine groups, missions,




                                                                                     DODIG-2015-001 │ 53
Part VI – Travel



                   and budgets then forward “mission matrices” depicting this information to the
                   authorizing officials in the M&P Directorate. Further, if there is insufficient
                   funding for travel, the authorizing officials in the M&P Directorate must contact the
                   comptroller, who contacts the affected section to determine funding availability.
                   Additionally, comptroller personnel that would be familiar with the FY cross-over
                   guidelines, according to the M&P Directorate supervisor, do not generally access or
                   work in DTS, but instead rely on the M&P Directorate personnel to complete DTS
                   actions. JPAC officials stated that each directorate, detachment, and group will
                   approve travel internally and have designated authorizing officials in DTS. Further,
                   M&P Directorate personnel will no longer serve as authorizing officials for travel,
                   but they will perform a quality assurance review of all authorizations and vouchers
                   prior to final approval.

                   JPAC officials also improperly assigned the roles of authorizing official and Defense
                   Travel Administrator (DTA) to the M&P Directorate personnel. DoD FMR volume 9,
                   chapter 2 states that DTS user permissions must provide for appropriate separation
                   of duties. DTA Manual Section 3.3.3 states that DTAs may not approve documents
                   and therefore, personnel assigned to a DTA role should not be designated as
                   authorizing officials in routing lists. Since they were assigned to both the role of
                   DTA and authorizing official, the four M&P Directorate’s user permissions allowed
                   them to: (1) control the setup and edit of user profiles, routing lists, and budgets;
                   and (2) amend, review, approve, edit, and certify travel documents. We identified
                   at least nine examples of authorizations in which the same M&P Directorate
                   employee performed each of the required steps to sign, approve, and adjust the
                   budget of a travel record within DTS. JPAC officials stated that once the new
                   authorizing officials are established, the only DTS role the M&P Travel Personnel
                   will perform will be that of DTA.

                   JPAC M&P Directorate personnel inappropriately certified the 19 travel vouchers in
                   our sample for payment. According to DoD FMR volume 9, chapter 2 an authorizing
                   official, “must be appointed, specifically, in writing as certifying officers in order
                   to perform certification for payment and approve and forward completed trip
                   records to the disbursing office for payment.” We reviewed the M&P Directorate’s
                   appointment records and determined that none of the four had been appointed
                   as certifying officers but rather as “departmental accountable officials.” Since
                   certifying officers can be held pecuniary liable for erroneous payments resulting
                   from negligence in the performance of their duties, JPAC should ensure that officials
                   performing the DTS role of certifying officer are properly appointed in writing,
                   have acknowledged their responsibilities, and have received the required training.




54 │ DODIG-2015-001
                                                                                      Part VI – Travel



Increased Risk of Fraud, Waste, and Abuse
JPAC’s outdated travel policy and improper DTS user roles led to TDY travel records
and payments that did not comply with guidance and possible Antideficiency Act
violations. During our assessment, the JPAC M&P Directorate and the Chief of
Staff initiated actions to improve controls over TDY travel. Specifically, they are
monitoring and enforcing the 5-day voucher submission requirement, updating
internal travel policy, and reassigning DTS roles. However, until the following
recommendations are completed, JPAC TDY funds are at continued risk for fraud,
waste, and abuse.


Recommendations
Recommendation 11
The Commander, Joint Prisoner of War/Missing in Action Accounting Command:

     a.	 Initiate a preliminary review in accordance with DoD
         Regulation 7000.14-R, volume 14, chapter 3, to determine whether
         Joint Prisoner of War/Missing in Action Accounting Command
         violated the Antideficiency Act, and, if it did, recommend corrective
         actions, including actions for responsible officials.

Commander, Joint Prisoner of War/Missing in Action Accounting
Command Comments
The Commander, Joint Prisoner of War/Missing in Action Accounting Command
concurred with comment to Recommendation 11.a. The command took immediate
action when the issue was discovered and made the necessary corrections.

Our Response
The comments from the Commander, Joint Prisoner of War/Missing in Action
Accounting Command are responsive for Recommendation 11.a. No further
comments are required at this time.

     b.	 Update Joint Prisoner of War/Missing in Action Accounting Command
         Instruction 4650.1 to define the travel process and procedures,
         delineate the roles and responsibilities of Joint Prisoner of War/
         Missing in Action Accounting Command personnel in the process,
         and establish controls to ensure compliance with applicable
         travel regulations.




                                                                                  DODIG-2015-001 │ 55
Part VI – Travel



                   Commander, Joint Prisoner of War/Missing in Action Accounting
                   Command Comments
                   The Commander, Joint Prisoner of War/Missing in Action Accounting Command
                   concurred with comment to Recommendation 11.b. The command updated their
                   internal policies to ensure compliance.

                   Our Response
                   The comments from the Commander, Joint Prisoner of War/Missing in Action
                   Accounting Command are responsive for Recommendation 11.b. No further
                   comments are required at this time.

                        c.	 Identify and appoint, in writing, appropriate personnel to the
                            Defense Travel System roles of authorizing official, certifying
                            official, and travel administrator in accordance with applicable
                            travel regulations.

                   Commander, Joint Prisoner of War/Missing in Action Accounting
                   Command Comments
                   The Commander, Joint Prisoner of War/Missing in Action Accounting Command
                   concurred with comment to Recommendation 11.c. Their roles and permissions
                   were audited and corrective action taken.

                   Our Response
                   The comments from the Commander, Joint Prisoner of War/Missing in Action
                   Accounting Command are responsive for Recommendation 11.c. No further
                   comments are required at this time.

                        d.	 Conduct a review of all FY 2013 temporary duty vouchers and, if non-
                            compliance is identified, ensure that Joint Prisoner of War/Missing
                            in Action Accounting Command personnel are held responsible and,
                            where appropriate, liable for overpayments.

                   Commander, Joint Prisoner of War/Missing in Action Accounting
                   Command Comments
                   The Commander, Joint Prisoner of War/Missing in Action Accounting Command
                   concurred with comment to Recommendation 11.d. The command discussed its
                   concerns with DoD OIG regarding required audits of past travel vouchers and
                   requested assistance in completing such an audit. The command’s expectation
                   is that DoD OIG’s Audit office would assist in completing this task because Joint
                   Prisoner of War/Missing in Action Accounting Command lacks the personnel to
                   accomplish a complete audit.




56 │ DODIG-2015-001
                                                                                    Part VI – Travel



Our Response
The comments from the Commander, Joint Prisoner of War/Missing in Action
Accounting Command partially met the intent of recommendation 11.d. While
we understand the administrative challenges in performing a review of travel
vouchers, based on our review of the 19 sampled vouchers and the potential
problems we identified, further review is needed. Because the DoD OIG does not
intend to review any additional travel records, the Commander, Joint Prisoner of
War/Missing in Action Accounting Command should coordinate with a Defense
component activity, such as the Defense Finance and Accounting Service, to review
the problem areas that we identified (see Table 1 on page 52), and ensure that
FY 2013 travel vouchers and payments are valid and supported. Once the travel
vouchers and payments are reviewed, the Commander should determine whether
anyone should be held accountable for any erroneously paid vouchers. We request
that the Commander, Joint Prisoner of War/Missing in Action Accounting Command
provide comments to the final report on their plan for reviewing the travel
vouchers and payments.




                                                                                DODIG-2015-001 │ 57
                         Part VII – Misconduct Allegations




Part VII
Misconduct Allegations




                                         DODIG-2015-001 │ 59
                                                                  Part VII – Misconduct Allegations




Observation 12
Allegations of Misconduct Made by Accounting
Community Employees
More than 40 current and former members of the past conflict accounting
community have submitted complaints to the DoD IG and Congress regarding
various alleged management derelictions and abuse. Most of these allegations dealt
with JPAC and its CIL.

Taken together, the complaints paint a picture of long-term leadership and
management problems resulting in a hostile and dysfunctional work environment,
and low morale throughout the accounting community.

If left uncorrected, the problems driving these complaints will be brought
into the new Defense agency created by the reorganization of the accounting
community as announced by the Secretary of Defense on March 31, 2014, hindering
mission accomplishment.



Discussion
More than 40 current and former members of the past conflict accounting
community have submitted complaints to the DoD OIG and Congress regarding
various alleged leadership and management derelictions and abuse. Most of these
allegations dealt with JPAC and the CIL.

The assessment team contacted and interviewed all complainants referred to the
DoD OIG by Congress. While the team was at JPAC and the CIL in February and
March 2014, approximately 25 people contacted the team to submit complaints
about JPAC and CIL management. The team interviewed many of the complainants
at off-site locations.

The assessment team forwarded the allegations to the DoD Hotline for investigation
and adjudication.

Figure 1 (page 62) contains a breakdown of the allegations by category.




                                                                                  DODIG-2015-001 │ 61
Part VII – Misconduct Allegations



                 Figure 1. Percent of Allegations of Misconduct by Category


                             Percent of AllegaƟons by Category
                            2%        2%                                      HosƟle Work Environment

                           3%              6%                                 Equal Employment Opportunity

                       4%                                                     Poor Leadership

                                                                              Unprofessional Behavior
                      5%
                                                                              Waste
                                                   44%
                                 9%                                           IVC Report

                                                                              Assault and Sexual Assault
                                  9%                                          Unequal General Schedule RaƟngs
                                           16%
                                                                              Ethics ViolaƟon

                                                                              Other




                 There have been a number of command climate surveys conducted at JPAC and the
                 CIL over the years, the last one published in April 2014. However, according to the
                 employees interviewed, the command has not implemented corrective actions and
                 the problems persist.

                 The incidents triggering these allegations occurred over a number of years and
                 paint a picture of long-term leadership and management problems resulting in a
                 hostile and dysfunctional work environment.

                 For the reorganization of the accounting community announced by the Secretary
                 of Defense to be successful, the DoD must correct these leadership problems before
                 JPAC and DPMO are merged into the new Defense agency.




62 │ DODIG-2015-001
                                                               Part VII – Misconduct Allegations



Recommendation
Recommendation 12
The Secretary of Defense, task an appropriate authority to conduct a
command climate inspection to address these allegations and then take
corrective action.

Secretary of Defense Comments
The Secretary of Defense concurred with Recommendation 12. The implementation
team will work to correct the deficiencies noted and ensure the new Agency has
strong leadership.

Our Response
The comments from the Secretary of Defense are responsive for Recommendation 12.
DoD OIG will follow-up in six months to request an update on the implementation
team’s progress for correcting the identified deficiencies.




                                                                               DODIG-2015-001 │ 63
                    Part VIII – Additional Issues




Part VIII
Additional Issues




                                DODIG-2015-001 │ 65
                                                                          Part VIII – Additional Issues



Family Reference Samples and Use of DNA in the
Identification Process
DNA testing of remains requires a family reference sample (a DNA sample taken
from a family member of the missing individual) to make comparison against. To
date, there is greater than 80 percent family reference sample coverage for Korea
and Southeast Asia. However, there is less than 5 percent coverage for World War
II missing, primarily due to the large number of unaccounted for individuals from
World War II compared to other conflicts. Without expedited effort to obtain
greater family reference sample coverage for MIAs from World War II, identification
efforts will become increasingly ineffective and fail to meet family needs.

JPAC relies on DNA testing to substantiate many of its identifications, but one of the
biggest issues regarding DNA testing is sample quality—the probability of getting a
DNA sequence match is highly dependent on the quality of the sample. DNA can be
very difficult to recover from very small samples or from samples that have been
degraded over time by harsh environmental conditions (primarily in Southeast
Asia). Unfortunately, the bone and tooth samples submitted to AFDIL by JPAC are
reportedly among the most degraded samples examined by any laboratory in
the world.

There are generally two types of DNA used for genetic testing: mitochondrial DNA
(mtDNA) and nuclear DNA. Both types of DNA are found in human cells; however,
there are multiple copies of mtDNA found in each cell, whereas there are only
two copies of nuclear DNA per cell. This high mtDNA copy number increases the
likelihood of recovering sufficient mtDNA from compromised samples, like those
submitted by JPAC, but nuclear DNA usually needs a sample of good quality for
accurate results. Currently, due to the condition of the samples submitted to AFDIL
by JPAC, the nuclear DNA success rate is not comparable to mtDNA sequencing
results and is very sample-dependent.

For both types of DNA testing, a family reference sample is necessary for
comparison, but, for nuclear DNA, a direct family reference sample is usually
needed from parents, siblings or direct offspring. Conversely, mtDNA is maternally
inherited so that all of an individual’s maternally-related family members will
have identical mtDNA sequences, which, depending on the missing person’s family,
might expand the pool of potential mtDNA family references, even if the unknown
and the reference sample are separated by many generations. Because of this,
mtDNA is not unique to an individual, making it necessary to have a sizeable
percentage of family reference samples to be able to gauge the relative weight of
an mtDNA match.




                                                                                      DODIG-2015-001 │ 67
Part VIII – Additional Issues



                 While DNA is an important part of the forensic toolkit, it is just one of many tools
                 that should be employed as part of a multidisciplinary approach that includes all
                 available lines of evidence such as odontology, anthropology, and trace evidence.
                 By using these other lines of evidence, JPAC is able to narrow down the number
                 of viable candidates for a given case to a short list of a few possible individuals.
                 The SCOs can then selectively target those individuals to obtain family reference
                 samples for DNA comparison. The analysis of the K20816 remains exemplifies
                 the benefits of using DNA in addition to other lines of evidence. Because of the
                 extensive comingling of the K208 remains, JPAC adopted a program of extensive
                 DNA sampling. And due to the fact that mtDNA is not a unique identifier, the
                 comingling required a full appreciation of the potential reference pool, which is
                 feasible since the Korean War family reference sample database is approaching
                 90 percent. The DNA testing is then complimented by biological and dental profiles
                 to make identifications.

                 In many cases, though, anthropology and odontology often provide the quickest
                 and most economical approach to identifications, primarily due to the fact that
                 the U.S. military has maintained detailed medical and dental records on its
                 service members for the last 100 years. For example, by virtue of the unfavorable
                 environmental factors in Southeast Asia, what is most commonly recovered from
                 Vietnam War sites are tooth crowns and badly degraded bone fragments that
                 are often too small to sample for DNA. As a result, the use of DNA testing can be
                 costly and time-consuming, whereas matches using dental records can often be
                 accomplished in a matter of days.

                 Moreover, remains from some Korean War unknowns interred at the National
                 Memorial Cemetery of the Pacific are best identified using anthropology techniques
                 (such as clavicle X-ray comparisons) because, during the burial process in the
                 1950s, Army Mortuary personnel soaked the bones in formaldehyde, causing
                 severe inhibition of DNA during lab processing and making mtDNA analysis
                 very challenging.


                 Information Value Chain Report
                 In June 2010, Dr. Paul Cole17 was directed by JPAC’s deputy commander to develop
                 a set of SOPs for the organization. In doing so, Dr. Cole simultaneously developed
                 what he defined as an Information Value Chain (IVC) report to be used as an
                 analytical tool to assist in the development of organizational SOPs. Reportedly,


                 	16	
                        K208 refers to the number of caskets of purported U.S. servicemen’s remains repatriated by the North Koreans in the
                        early 1990’s.
                 	17	
                        Dr. Paul Cole was an Oak Ridge Institute for Science and Education employee working at JPAC within the laboratory.




68 │ DODIG-2015-001
                                                                                                        Part VIII – Additional Issues



the IVC was never intended to be released with the SOPs—it was planned to be
used solely by the commanding general and deputy commander as a management
tool. Dr. Cole provided the commander and deputy commander a hard copy in
September 2011. The report was then inadvertently released to the JPAC staff at
large in January 2012.

When released, the IVC was still an unfinished draft document, but one which
highlighted shortcomings within JPAC’s operations. During our fieldwork, the
DoD OIG team received differing views as to the level of support and cooperation
afforded to Dr. Cole by JPAC staff while conducting his research for the IVC/
SOP. These differing views carried over to the validity of Dr. Cole’s assertions and
conclusions regarding the competency of JPAC sections and individuals. The DoD
OIG team did not perform an in-depth study of the IVC to determine the merits or
veracity of Dr. Cole’s claims. DPMO has contracted with the Institute for Defense
Analyses to assess the IVC report.18


Equal Consideration and Respect for Each Conflict
There is a perception that the missing from the three main conflicts (World War II,
Korea/Cold War, and Southeast Asia) are not all treated with equal consideration
by the DoD. Specifically, section 2647, title 10, United States Code (10 U.S.C. §2647
[2002]) provides transportation for next of kin of persons who are unaccounted
for from the Korean, Cold War, Vietnam, and Persian Gulf Wars to and from an
annual meeting in the U.S. (traditionally held in Washington, D.C.) each summer.
There is no such provision in the statute for families of those missing from
World War II. We suggest that the Office of the Secretary of Defense study the
statutory differences.




	18	
       Report No. IDA Document D-5178, “Assessment of the Report on Joint Prisoner of War/Missing in Action (POW/MIA)
       Accounting Command’s Information Value Chain,” May 2014. For Official Use Only.




                                                                                                                        DODIG-2015-001 │ 69
                                                                                           Appendixes




Appendix A
Scope and Methodology
The DoD OIG initiated this assessment as a research project on August 14, 2013,
transitioning into a full assessment on November 6, 2013. We conducted this
assessment from November 2013 to April 2014, in accordance with the Quality
Standards for Inspection and Evaluation (Blue Book). We planned and performed
the assessment to obtain sufficient and appropriate evidence to provide a
reasonable basis for our observations, conclusions, and recommendations based on
our objectives.

This assessment was conducted at the request of the Under Secretary of Defense
for Policy and members of the Senate on Homeland Security and Governmental
Affairs Committee and the House Armed Services Committee. It was a continuation
of the research conducted under project D2013-D00SPO-0219, “Research
Assessment on the Department’s Programs to Identify and Repatriate the Remains
of the Nation’s Missing Fallen from Past Armed Conflicts.”

The purpose of this project was to assess the past conflict accounting community’s
plans, policies, regulations, processes and procedures, resources, and other
relevant activities for finding, recovering, identifying, and repatriating the remains
of the Nation’s missing in action, and review DoD compliance with relevant
statutory requirements.

To identify impediments preventing the accounting community from achieving its
mission, we requested relevant data from the appropriate DoD organizations and
conducted site visits, interviews, and briefings with officials from Congress, DoD,
and the accounting community.

The audit section reviewed Federal and DoD guidance to include public law; joint
Federal travel regulations; joint travel regulations; DoD financial management
regulations; Office of Management and Budget guidance; DoD Travel Management
Office manuals, guides, and best practices; and Department of the Navy and U.S.
Pacific Command DTS business rules. They also reviewed JPAC travel policy,
procedures, and processes.

We also reviewed and evaluated results from the following initiatives to help
inform our assessment:

     •	 DoD OIG Hotline review of 30 complaints received between 1992 and 2013
        concerning malfeasance and leadership issues at JPAC.
     •	 The Cost Assessment and Program Evaluation review of the POW/MIA
        accounting community’s organizational structure.



                                                                                      DODIG-2015-001 │ 71
Appendixes



                          •	 Recent U.S. Pacific Command IG inspection report.
                          •	 Command climate surveys.

                 From November 2013 to April 2014, the DoD OIG assessment team visited all
                 organizations within the accounting community, including JPAC detachments in
                 Thailand, Laos, and Vietnam; the forward deployed element in Korea; and the
                 Liaison office in Germany. The team met with a number of veterans service
                 organizations, universities, non-governmental agencies, private companies, and
                 people who have an interest in the accounting mission.

                 The team also interviewed more than 40 current and former employees of the
                 accounting community regarding various, alleged management derelictions and
                 abuse which have been referred to the DoD OIG Hotline for proper disposition.

                 Further, the 2014 National Defense Authorization Act requires DoD to take into
                 account DoD OIG recommendations in the Secretary of Defense June 2014 report
                 to Congress.

                 The assessment project chronology was as follows:

                      August – November 2013          Research
                      November 2013 – April 2014      Fieldwork
                      April – May 2014                Analysis and report writing
                      May 2, 2014                     Discussion Draft Report issued
                      June 18, 2014                   Draft assessment report issued
                      July – September 2014           Management comments received and evaluated
                      October 2014                    Final Report Issued

                 Limitations
                 We limited our review to DoD organizations associated with this mission, including,
                 but not limited to, DPMO, JPAC, the Under Secretary of Defense for Policy, the Under
                 Secretary of Defense for Personnel and Readiness, the U.S. Pacific Command, the
                 Armed Forces DNA Identification Laboratory, and the Service Casualty Assistance
                 Offices.


                 Use of Computer-Processed Data
                 We did not use computer-processed data to perform this assessment.


                 Use of Technical Assistance
                 We did not use technical assistance to perform this assessment.




72 │ DODIG-2015-001
                                                                                            Appendixes




Appendix B
Prior Coverage
During the last 10 years, the Government Accountability Office (GAO), the DoD OIG,
the U.S. Pacific Command IG, Cost Assessment and Program Evaluation (CAPE),
Congressional Research Service (CRS), Library of Congress, and the Institute for
Defense Analyses (IDA) issued multiple reports discussing DoD’s POW/MIA mission
performance issues and made extensive recommendations for improvement.
Based on our DoD IG assessment, it was not apparent that many of these
recommendations were ever implemented.

GAO
GAO-13-619, “DoD’s POW/MIA Mission: Top-Level Leadership Attention Needed
to Resolve Longstanding Challenges in Accounting for Missing Persons from
Past Conflicts,” July 17, 2013. The report discussed GAO’s assessment of DoD’s
capability and capacity to accomplish the missing persons accounting mission. GAO
recommended that DoD examine options to reorganize; clarify responsibilities for the
accounting community; improve planning, guidance, and criteria to prioritize cases;
and sustaining communication.

GAO-05-756R, “Defense Management: Assessment Should Be Done to Clarify
Defense Prisoner of War/Missing Personnel Office Personnel and Funding Needs,”
August 25, 2005. The report discussed GAO’s assessment of DPMO’s mission,
personnel, and funding. GAO recommended that USD(P) determine the scope of
DPMO’s missions and responsibilities, and revise DPMO’s charter; undertake a formal
needs assessment of DPMO’s workload to determine resource need and allocation; and
revise the strategic plan.

DoD IG
D-2005-038, “Infrastructure and Environment: Defense Prisoner of War/Missing
Personnel Office Data Call Submissions and Internal Control Processes for Base
Realignment and Closure 2005,” March 25, 2005. The report discussed the adequacy,
completeness, and integrity of the data provided by DPMO to assist the Secretary
of Defense in Base Realignment and Closure (BRAC) 2005 recommendations. The
DoD OIG identified internal control weakness and non-compliances with the internal
control plans, which did not impact the reliability of the data provided for use in
BRAC 2005 analysis.




                                                                                       DODIG-2015-001 │ 73
Appendixes



                 USPACOM IG
                 “Organizational Assessment Report for Joint POW/MIA Accounting Command
                 (JPAC),” April 26, 2013. USPACOM IG assessed and found deficiencies in records
                 management, information assurance, certification and accreditation, command
                 support, and information and communication security for which they made
                 recommendations.

                 CAPE
                 “Organizational Structure Review of the Personnel Accounting Community,”
                 March 28, 2014. The report assessed the organizational structure, processes, and
                 metrics of the DoD Personnel Accounting Community. CAPE identified areas of
                 duplication, analyzed the past conflict accounting community resources, provided
                 the pros and cons of unifying JPAC/DPMO into a single agency with a proposed
                 organizational structure, ID process, metrics for the new organization and
                 subcomponent organizations, and made additional business process improvement
                 recommendations.

                 CRS
                 RL33452, “POWs and MIAs: Status and Accounting Issues,” June 1, 2006. The
                 report discussed the controversy surrounding the fate of U.S. prisoners of war and
                 service members missing in action from past conflicts.

                 IDA
                 IDA Document D-5178, “Assessment of the Report on Joint Prisoner of War/Missing
                 in Action (POW/MIA) Accounting Command’s Information Value Chain,” May 2014.
                 The For Official Use Only report provides an independent assessment of the JPAC’s IVC
                 report. IDA was asked by DPMO to provide this assessment on the main assertions, the
                 validity of the data, the recommendations, actions taken since the report was drafted,
                 IDA’s assessment of the effectiveness of those actions, and additional recommendations
                 if warranted.

                 IDA Paper P-4478, “Assessment of DoD’s Central Identification Lab and the
                 Feasibility of Increasing Identification Rates,” June 2009. The report discussed
                 IDA’s review of JPAC’s current structure, resources, assets, and physical location of
                 the Central Identification Laboratory. The IDA recommended that JPAC improve the
                 communication of expectations and the status of pending cases; selectively employ a
                 broader range of DNA methods for identification; adopt a community-wide approach
                 to increase family reference sample collection; fund research and development on new




74 │ DODIG-2015-001
                                                                                               Appendixes



identification methods; provide ample examination table space in the new CIL facilities;
create a human capital strategy and plan for the CIL scientific staff; rebalance the
personnel mix at the CIL to make more productive use of scientific talent; delegate
authority for preparing identification memos; develop and assess a plan for a near-
term initiative focused on pending Korean War cases; and create a long-term mission
execution plan.

IDA Document D-3267, “Accounting Mission Organization Study,” May 2006.
The IDA identified and analyzed organizational changes that could improve the
effectiveness and efficiency of the POW/MIA accounting community’s work. The IDA
provided recommendations to address deficiencies in policy, operations, identifications,
support functions, public affairs, congressional liaison, information technology, and an
overarching organizational component.

IDA Paper P-4025, “Assessing the U.S.-Russia Joint Commission on POW/MIAs,”
August 2005. The report discussed the U.S.-Russia Joint Commission and the Joint
Commission Support Directorate’s accomplishments, challenges, and effectiveness.
The IDA provided recommendations for structural and process changes to enhance
the efficiency and effectiveness of their work. The IDA concluded that the continued
existence of the Commission would benefit the overall U.S. accounting mission of
ascertaining the fate of POW/MIAs.

IDA Paper P-4007, “Life Sciences Equipment Laboratory (LSEL) and Joint POW/
MIA Accounting Command (JPAC) Relationship Study: Final Report,” July 2005.
The IDA provided an assessment of the quality, results, and effectiveness of special
support services provided by LSEL to JPAC. The IDA analyzed the timeliness and
quality of reports submitted, capability to provide timely support to JPAC Life Support
Investigators, and the ability to adequately address questions of fate determination
with regard to U.S. service personnel missing in action. The IDA provided
recommendations to improve their lack of communication and inattention to building
and maintaining a working relationship.

IDA Paper P-3779, “Interim Report on Interagency National Personnel Recovery
Architecture,” July 2003. The IDA was tasked to describe the national personnel
architecture, develop a strategic vision for personnel recovery, identify shortfalls and
gaps in the current National Personnel Recovery Architecture, and identify alternatives
to improve the national architecture. The IDA recommended that the policy and
planning implications of such a broadening of personnel recovery obligations be
considered in advance of future incidents.




                                                                                          DODIG-2015-001 │ 75
Appendixes




                 Appendix C
                 Organizations Contacted and Visited
                 We visited, contacted, or conducted interviews with officials (or former officials)
                 from the following U.S. organizations, veterans service organizations, and
                 foreign organizations:

                 U.S. Organizations
                 U.S. Congress
                        House of Representatives Committee on Armed Services
                        Senate Committee on Armed Services
                        Senate Committee on Homeland Security and Governmental Affairs

                 Department of Defense
                        Office of the Under Secretary of Defense for Policy
                        Office of the Under Secretary of Defense for Personnel and Readiness
                        Office of Cost Analysis and Program Evaluation
                        U.S. Pacific Command (Honolulu, Hawaii)
                        U.S. European Command, Sustainment and Readiness Office
                        	 (Stuttgart, Germany)
                        U.S. Army Europe, Theater Mortuary Affairs Office (Wiesbaden, Germany)
                        U.S. Forces Korea, Casualty and Mortuary Affairs Office (Seoul, South Korea)
                        Armed Forces Medical Examiner/Armed Forces DNA Identification 		
                        	 Laboratory
                        U.S. Air Force Life Sciences Equipment Laboratory
                        Defense Prisoner of War/Missing Personnel Office
                        Joint POW/MIA Accounting Command:
                              •	 Joint POW/MIA Accounting Command Headquarters
                                 (Honolulu, Hawaii)
                              •	 Central Identification Laboratory Annex
                                 (Offutt Air Force Base, Nebraska)
                              •	 Detachment One (Thailand)




76 │ DODIG-2015-001
                                                                               Appendixes



           •	 Detachment Two (Vietnam)
           •	 Detachment Three (Laos)
           •	 Korean Forward Element (Seoul, Korea)
           •	 U.S. European Command JPAC Liaison Officer
              (Miesau Army Depot, Germany)
      Service Casualty Offices

Department of State
      U.S. Embassy Bangkok:
           •	 Deputy Chief of Mission
           •	 Defense Attaché (Thailand)
           •	 Defense Attaché (Burma)
      U.S. Embassy Hanoi:
           •	 Deputy Chief of Mission
           •	 Political Affairs Counselor
           •	 Defense Attaché
      U.S. Embassy Vientiane:
           •	 U.S. Ambassador
           •	 Political Affairs Counselor
           •	 Defense Attaché

Other U.S. Organizations
      National Archives and Records Administration

Veterans Service Organizations
      Veterans of Foreign Wars

Foreign Organizations
      Ministry of National Defense Agency for Killed in Action Recovery
      	 and Identification (South Korea)
      United Nations Command, Military Armistice Commission
      	 (Seoul, South Korea)




                                                                          DODIG-2015-001 │ 77
Appendixes




                 Appendix D
                 Policies
                      1.	 Sections 1501-1513, Title 10, United States Code (10 U.S.C. § 1501-
                          1513 [2013]). This requires accounting for personnel unaccounted
                          for from World War II through the Gulf War, plus any other conflicts
                          designated by the Secretary of Defense. Additionally, the law requires
                          that the accounting community increase its capacity and capability in
                          order to account for 200 missing persons. Further, the Deputy Assistant
                          Secretary of Defense for POW/Missing Personnel Affairs is designated as
                          having responsibility for policy, control, and oversight within DoD of the
                          entire process for investigation and recovery of missing persons.
                      2.	 Section 1471, Title 10, United States Code (10 U.S.C. § 1471 [2011]).
                          This states that under the regulations prescribed by the Secretary of
                          Defense, the Armed Forces Medical Examiner may conduct a forensic
                          pathology investigation to determine the cause or manner of death of a
                          deceased person if such an investigation is determined to be justified
                          under circumstances described in subsection (b), including instances in
                          which the identity of the deceased is unknown. The investigation may
                          include an autopsy of the decedent’s remains and is justified when the
                          identity of the decedent is unknown.
                      3.	 DoD Directive 5110.10, “Defense Prisoner of War/Missing Personnel
                          Office (DPMO),” September 21, 2005. DoD Directive 5110.10 establishes
                          the roles and responsibilities of the Defense POW/Missing Personnel
                          Office. DPMO is established under the authority, direction, and control of
                          the Under Secretary of Defense for Policy through the Assistant Secretary
                          of Defense for International Security Affairs.
                      4.	 DoD Directive 2310.07E, “Personnel Accounting—Losses Due to
                          Hostile Acts,” August 21, 2007. DoD Directive 2310.07E states that
                          accounting for personnel lost as a result of hostile acts is of the highest
                          priority. This directive also establishes the roles and responsibilities of
                          certain organizations within the accounting community.
                      5.	 DoD Instruction 3001.03, “Accounting for Personnel Lost in Past
                          Conflicts—The Armed Forces Identification Review Board (AFIRB),”
                          March 14, 2008. This instruction states that accounting for personnel
                          lost as a result of hostile acts is a matter of national priority. DoD
                          shall implement timely and effective policy and procedures to enhance
                          personnel accounting operations, determine and report accurately the
                          status of those who are missing or unaccounted for, and provide current
                          information to appropriate family members.




78 │ DODIG-2015-001
                                                                                      Appendixes



 6.	 DoD Directive 1300.22E, “Mortuary Affairs Policy,” May 25, 2011. This
     directive provides overarching policy guidance for Joint Publication 4-06,
     which establishes tactics, techniques, and procedures for mortuary affairs
     in joint operations.
 7.	 Joint Publication 4-06, “Mortuary Affairs”, October 12, 2011. This
     publication provides joint doctrine for mortuary affairs support in joint
     operations. It outlines procedures for the search, recovery, evacuation (to
     include tracking of human remains), tentative identifications, processing,
     and/or temporary interment of human remains. This publication addresses
     both the DoD’s mortuary affairs responsibilities in regards to civil support
     duties under Commander, U.S. Northern Command and to the other
     geographic combatant commanders. It further addresses decontamination
     procedures for handling contaminated human remains and provides for
     the handling of personal effects of deceased and missing personnel.
 8.	 DoD Instruction 2310.mm, “Locating, Recovering, and Identifying
     Remains of Missing Persons After Hostilities Have Ceased,”
     November 2013 [DRAFT]. This instruction implements policy and
     establishes policy, assigns responsibilities, and provides guidance for:
     locating, recovering, and identifying remains of unaccounted for DoD
     personnel from World War II, the Cold War, Korean War, Indochina War,
     and Persian Gulf War.
 9.	 Joint Federal Travel Regulations Volume 1, “Uniformed Service
     Members,” October 1, 2012. This regulation establishes policy for per
     diem, travel and transportation allowances, relocation allowances, and
     certain other allowances of Uniformed Service Active Duty and Reserve
     Component members.
10.	 Joint Travel Regulations Volume 2, “Department of Defense Civilian
     Personnel,” October 1, 2012. This regulation establishes policy for per
     diem, travel, and transportation allowances; relocation allowances; and
     certain other allowances of DoD civilian employees and civilians who
     travel using DoD funding.
11.	 DoD Financial Management Regulation 7000.14-R, Volume 9, “Travel
     Policy,” June 2013. This volume provides supplemental instructions
     on the payment of allowances authorized by the Joint Federal Travel
     Regulations and the Joint Travel Regulations. Key chapters include
     chapter 2, “Defense Travel System,” August 2011, and chapter 5,
     “Temporary Duty Travel,” February 2013.
12.	 Office of Management and Budget Circular A-123, “Management’s
     Responsibility for Internal Control,” December 21, 2004. The
     circular defines management’s responsibility for internal controls in
     Federal agencies. Appendix C of the circular, “Requirements for Effective




                                                                                 DODIG-2015-001 │ 79
Appendixes



                          Measurement and Remediation of Improper Payments,” August 10, 2006,
                          enacts and provides guidance on implementation of several provisions of
                          law aimed at improving the integrity of the Government’s payments and
                          the efficiency of its programs and activities.
                      13.	 DoD Travel Management Office, “Defense Travel Administrator’s
                           Manual,” December 20, 2013. This manual provides guidance for
                           administrators to set up, control, and update their organization’s Defense
                           Travel System structures.
                      14.	 U.S. Pacific Command, “Local Business Rules Guide for the Defense
                           Travel System,” March 1, 2007. This guide provides guidance regarding
                           travel using Defense Travel System and the Government Travel Charge
                           Card. Subordinate commands should use the guide as a baseline
                           to develop their own business rules for implementation of Defense
                           Travel System.
                      15.	 JPAC Instruction 4650.1, “Travel Management Control,”
                           November 7, 2005. This instruction establishes policy and procedures
                           for temporary duty travel for JPAC personnel.




80 │ DODIG-2015-001
                                                                                          Appendixes




Appendix E
Assessment Initiation
Three letters of request regarding concerns with the past conflict accounting
community performance sent to the DoD OIG initiated this assessment. The
memos are as follows: Senator McCaskill, Congresswoman Speier, and former
DoD USD(P) Miller.

Congresswoman Speier’s July 2013 memo on behalf of the House Armed Services
Committee members requested the DoD OIG conduct an audit of JPAC and its
processes, including whether foreign travel for investigations was properly
authorized, the proficiency of JPAC’s processes for gathering remains used for
identification, the accuracy and quality of JPAC’s tools for conducting investigations
and collecting evidence, whether the internal report [the Cole IVC] was properly
handled, and any additional matters the IG considers to be within the scope of
an audit.

In a September 2013 letter, Senator McCaskill requested that the DoD OIG conduct
a review of the accounting community’s work environment and procedures for
responding to employee complaints as part of our DoD Accounting Community
assessment. This is due to the fact, that in preparation for the committee’s
August 2013 hearing on POW/MIA accounting, they received allegations from
numerous current and former employees describing JPAC as a hostile work
environment and that managers/leaders had engaged in systemic retaliation and
discrimination against whistleblowers.

The memo from USD(P) requests the DoD OIG immediately initiate an investigation
into the Department’s practices regarding accounting for missing/fallen personnel
from past conflicts, taking into account recent reports alleging waste, abuse,
and other deficiencies relating to the administration of programs carried out by
JPAC and DPMO. The memo requests the DoD OIG consider any reports prepared
by the U.S. Pacific Command Inspector General, the Government Accountability
Office, and the DoD OIG Hotline, specifically the careful consideration of Dr. Paul
Cole’s IVC report, the allegations contained in the email from Dr. Patty O’Grady,
and allegations contained in any other sources alleging waste or mismanagement
regarding either JPAC, DPMO, or any of their senior officials. The memo also
requested the DoD OIG coordinate the investigation with the review being
undertaken by the DoD Cost Analysis and Program Evaluation organization.




                                                                                     DODIG-2015-001 │ 81
Appendixes




                 Appendix F
                 National Defense Authorization Acts
                 The National Defense Authorization Act (NDAA) contains directive statutory
                 language for the DoD, and as such for the Secretary of Defense, with respect
                 to responsibilities for accounting of missing personnel. The first accounting
                 organization was formed in 1973 and the accounting community has evolved
                 over the years to its present day structure and responsibilities.

                 The key relevant NDAA years are 1996, 2010, and 2014. The 1996 NDAA
                 significantly changed Title 10 of the United States Code (sections 1501-1513) and
                 most of the language remains in the current version. The 2010 NDAA established
                 the 200 remains identified per year goal. The 2014 NDAA added a specific
                 requirement directing the Secretary of Defense to report to Congress on the
                 accounting community within 6 months of the official publishing of the NDAA
                 in February 2014.




82 │ DODIG-2015-001
                                Management Comments




Management Comments
Secretary of Defense Comments




                                      DODIG-2015-001 │ 83
Management Comments



                 Under Secretary of Defense for Policy Comments




84 │ DODIG-2015-001
                                                Management Comments



Under Secretary of Defense for Policy Comments (cont’d)




                                                      DODIG-2015-001 │ 85
Management Comments



                 Under Secretary of Defense for Policy Comments (cont’d)




86 │ DODIG-2015-001
                                                Management Comments



Under Secretary of Defense for Policy Comments (cont’d)




                                                      DODIG-2015-001 │ 87
Management Comments



                 Under Secretary of Defense for Policy Comments (cont’d)




88 │ DODIG-2015-001
                                               Management Comments



Under Secretary of Defense for Personnel and
Readiness Comments




                                                     DODIG-2015-001 │ 89
Management Comments



                 Under Secretary of Defense for Personnel and
                 Readiness Comments (cont’d)




90 │ DODIG-2015-001
                                                 Management Comments



Chairman of the Joint Chiefs of Staff Comments




                                                       DODIG-2015-001 │ 91
Management Comments



                 Chairman of the Joint Chiefs of Staff Comments (cont’d)




92 │ DODIG-2015-001
                                      Management Comments



Commander, Joint POW/MIA Accounting
Command Comments




                                            DODIG-2015-001 │ 93
                                                                       UNCLASSIFIED




94 │ DODIG-2015-001
                      JPAC Comment Matrix Draft Report Project NO. D2014-D00SPO-0073 (DoD IG Draft Report)

                      Item   #   Source   Type Page   Para   Line                                Comments                                      Rationale   Decision
                                                                                                                                                                                                            Management Comments




                                                                                                                                                           (A/R/M)



                                                                     REQUESTED JPAC MANAGEMENT COMMENTS ON
                                                                     RECOMMENDATION 11

                                                                     Concur with Comment.
                                                                     Immediate corrective action was taken when discovered. Proper year
                                                                     funding did exist, DFAS notified to make adjustments. Administrative
                                                                     error corrected and documents provided to DoD(IG) Auditor. Evident
                       1          JPAC     C    42           11a.    of this being an oversight versus an Anti-Deficiency Act (ADA)
                                                                     violation; not all orders lacked cross-year fund citation for the same
                                                                     mission. Preliminary review initiated, to comply with DoDR
                                                                     7000.14-R to prove not an ADA.

                                                                     Concur with Comment.
                                                                     Updated JPAC Instruction, DTS business rules completed to ensure
                       2          JPAC     C    42           11b.
                                                                     compliance, 2 Jul 14.
                                                                                                                                                                      Command Comments (cont’d)




                                                                     Concur with Comment.
                                                                     DTS roles and permissions have been audited and corrective action
                                                                     taken. JPAC in final process of aligning the authorizer, reviewer,
                                                                     certifier, and travel administrator roles. During FY13 the period
                       3          JPAC     C    42           11.c.   reviewed, all travel was approved by the JPAC Deputy Commander
                                                                     via separate coordination with JPAC travel section prior to approval of
                                                                     all travel. The Deputy Commander had oversight and control of
                                                                     mission and budget outside of DTS.
                                                                                                                                                                      Commander, Joint POW/MIA Accounting




                                                                     Concur with Comment.
                                                                     Discussed in length with DoD(IG) concerning required audits of past
                                                                     travel vouchers. This was also covered in discussions with
                       4          JPAC     C    42           11.d.   PACOM/IG prior to, during, and after their April 2013 assessment of
                                                                     JPAC. JPAC requested assistance in completing audit. Expectation
                                                                     that DoD(IG) Audit would assist in completing task because JPAC
                                                                     lacks the personnel to accomplish a complete audit.

                      JPAC Comment Matrix Draft Report Project NO. D2014-D00SPO-0073 (DoD IG Draft Report)
                                                                              7/22/2014

                                                                                   UNCLASSIFIED
                                                                             Acronyms and Abbreviations




Acronyms and Abbreviations
    AFDIL Armed Forces DNA Identification Laboratory
       CIL Central Identification Laboratory
     DASD Deputy Assistant Secretary of Defense
      DNA Deoxyribonucleic Acid
    DPMO Defense Prisoner of War/Missing Personnel Office
      DTA Defense Travel Administrator
      DTS Defense Travel System
      FMR Financial Management Regulation
       IVC Information Value Chain
     JPAC Joint Prisoner of War/Missing in Action Accounting Command
      LOA Line of Accounting
      LSEL Life Sciences Equipment Laboratory
     M&P Manpower and Personnel
   MAKRI Ministry of National Defense Agency for Killed in Action Recovery (South Korea)
      MIA Missing in Action
   mtDNA Mitochondrial Deoxyribonucleic Acid
    NDAA National Defense Authorization Act
      OIG Office of Inspector General
     POW Prisoner of War
      R&A Research and Analysis
      SCO Service Casualty Offices
      SOP Standard Operating Procedure
      TDY Temporary Duty
   USD(P) Under Secretary of Defense for Policy
 USD(P&R) Under Secretary of Defense for Personnel and Readiness
 VNOSMP Vietnamese Office for Seeking Missing Persons




                                                                                           DODIG-2015-001 │ 95
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
